<html>
<title> - STATUS OF AVIATION SECURITY ONE YEAR AFTER SEPTEMBER 11th</title>
<body><pre>[Senate Hearing 107-1115]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1115

       STATUS OF AVIATION SECURITY ONE YEAR AFTER SEPTEMBER 11th

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 10, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
93-422                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 10, 2002...............................     1
Statement of Senator Allen.......................................     7
Statement of Senator Boxer.......................................     7
    Prepared statement...........................................     8
Statement of Senator Breaux......................................    12
Statement of Senator Brownback...................................    10
    Prepared statement...........................................    11
Statement of Senator Carnahan....................................     3
Statement of Senator Cleland.....................................    10
Statement of Senator Ensign......................................     5
Statement of Senator Fitzgerald..................................    42
Statement of Senator Hollings....................................     1
Statement of Senator Hutchison...................................     5
Statement of Senator McCain......................................     2
Statement of Senator Nelson......................................    12
Statement of Senator Rockefeller.................................    11
Statement of Senator Snowe.......................................    37
Statement of Senator Wyden.......................................     4

                               Witnesses

Loy, Admiral James M., Acting Under Secretary of the 
  Transportation Security Administration, Department of 
  Transportation.................................................    13
    Prepared statement...........................................    17

                                Appendix

Dorn, Nancy P., letter dated August 30, 2002, to George W. Bush, 
  submitted by Hon. J. Dennis Hastert............................    54
Loy, Admiral James M., letter dated September 5, 2002, to Hon. 
  Ernest F. Hollings.............................................    49
Response to written questions submitted by Hon. Ernest F. 
  Hollings to Admiral James M. Loy...............................    50

 
       STATUS OF AVIATION SECURITY ONE YEAR AFTER SEPTEMBER 11th

                              ----------                              


                      TUESDAY, SEPTEMBER 10, 2002

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
SR-253, Russell Senate Office Building, Hon. Ernest F. 
Hollings, Chairman of the Committee, presiding.

         OPENING STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    The Chairman. The Committee will please come to order. 
Welcome, Admiral Loy. Shalom. Peace. I am enthused about your 
appointment, because it gets us to where we had hoped we were 
last fall and before Christmas, when we passed the airline 
security measure. We provided the money and without even a 
hearing we went forward with the administration's choice.
    We had an administrator that has not worked out, and in 
that interim we have had a veritable fist fight in the 
newspapers, headlines, stories, deadlines, and the purpose as 
far as this Senator is concerned for the hearing here today is 
to settle down, stop all the releases, and testify to one 
thing, what you want out of this Committee. I want to make a 
copy of a letter I wrote on August 1 to give you a month. You 
had just come on board back in July, and in that letter we 
outlined 10 or 12 questions that the Members of the Committee 
were all concerned about, give you a month to review it and 
provide your answers, and we have that letter of August 1 and 
your answer here today, and we will make both of those a part 
of the record.
    Other than that, we will go down those items in detail, but 
most of all, do not please a week from now or a month from now 
say we want this from the Congress, because you have got your 
opportunity here to put us on the spot. We have got to start 
working together and get it done.
    It can be done. We have got a Coast Guard fellow up at 
Logan Airport who has done it, and that was one of the toughest 
ones of all, and he is going to meet all the deadlines, got all 
the security, got all the equipment and everything else. He has 
not got all the releases and news stories about how impossible 
it is, we are not talking, and all that nonsense, and as the 
Coast Guard Admiral, having worked with this Committee, and 
Commandant, we know your track record and that is why I am 
enthused.
    I would yield to my Ranking Member.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you very much, Mr. Chairman. Thank 
you for holding this hearing. It is an important one, and 
tomorrow, as we all know, marks 1 year since terrorists used 
our air transportation system to viciously attack our Nation. 
It is highly appropriate we take this opportunity to review the 
current state of aviation security and determine what progress 
is being made in meeting the critical deadlines that Congress 
set down nearly 10 months ago to promote the security of the 
public. While I believe that aviation security is better than 
it was a year ago, there are still many reasons for us to be 
concerned.
    Obviously, we still face a ruthless and determined enemy. 
Terrorists have repeatedly targeted aviation in the past, and 
there is little reason to assume it will not be used again in 
the future. Congress reacted swiftly to the events of last year 
by passing a landmark aviation security bill. Although the new 
law addressed many of the security concerns directly associated 
with the events of September 11, it also took steps to deal 
with a wide variety of other matters, including issues that 
were long overdue for attention.
    For example, despite the fact that Congress required the 
deployment of explosive detection systems at airports many 
years ago, little progress has been made prior to the attack. 
Far too many important initiatives in the past have languished 
in bureaucratic limbo. Therefore, we imposed hard deadlines to 
make sure that our directive would be implemented by the TSA.
    At our last hearing in July, Secretary Mineta and Admiral 
Loy testified that the TSA would have to reassess its ability 
to meet certain statutory mandates in light of budget 
constraints, and logistical difficulties associated with some 
projects. In Monday's USA Today, Admiral Loy indicated that TSA 
expects to, quote, ``come close,'' unquote, to meeting the 
deadlines. That may be good enough for USA Today, Mr. Loy. It 
is not good enough for this Committee.
    I think we need to know now. Here we are, 2\1/2\ or 3\1/2\ 
months away from a deadline. I think we and the American 
people, but also the people who are running the airports in 
America need to know what deadlines we are going to meet, what 
deadlines we are not going to meet. I would also remind you--
not you specifically--that Senator Hollings and I worked very 
closely with the Secretary of Transportation and other 
administration officials when we developed the legislation.
    As I remember, Mr. Chairman, nothing was written into law 
that did not have the total and complete agreement of the 
administration, and so it is not as if we took off on our own 
and decided we would impose these deadlines. These were 
agreements we made with Secretary Mineta, Assistant Secretary 
Jackson, and other administration officials. That is why we are 
a little disappointed when we see the kind of lack of response 
on this issue, and so I hope that we can get some predictable 
goals and predictable time lines for particularly a lot of the 
major airports in America, McCarran Airport, Phoenix Sky 
Harbor, Kennedy O'Hare.
    Some of the major airports in America, without some firm 
guidelines, and probably without some delays, would experience 
very significant difficulties in operating. At the same time, 
we do not want to just put everything off indefinitely.
    I guess, finally, Admiral, I would like to thank you for 
your willingness to serve, as I mentioned to you before, but I 
think we have got to have better communications between TSA, 
Secretary of Transportation, the administration, and Members of 
Congress. Quite often, when someone experiences some 
unconscionable delay or difficulty or problem they do not come 
to you, they come to us, because we are their elected 
representatives, and we would like to be better informed and 
better prepared to respond to many of the questions and 
comments they have.
    Finally, Admiral Loy, I hope that you are doing everything 
in your power to examine the enormous technological 
capabilities that are out there that can be adopted and 
implemented, sensors, detection devices, video cameras. I mean, 
there are tremendous things. I am approached frequently by 
people who have proposals with implementing the use of existing 
technology that could cut down perhaps on 50,000 new employees 
we are going to have to hire. I hope you can assure the 
Committee today that you are examining every type of 
technology.
    I have been briefed by people who say that one can have 
technology--from the moment that the car pulls up and the 
passenger gets out, that individual can be tracked all the way 
into the airplane until it takes off. It seems to me that we 
are not going to do it with people as much as we are going to 
be able to do it with technology. So I hope you are devoting a 
fair amount of your time on that very important aspect, because 
I do not see how we can truly secure our airports without the 
extensive use, and I understand sometimes expensive use of 
technology.
    I thank you, Mr. Chairman. I thank you for holding this 
hearing, and I hope that from this hearing we can get a lot 
more information as to exactly what your plans are in the 
future, recognizing that you are still relatively new in the 
job, and again, I thank you for your willingness to serve in 
this very important and challenging position.
    I thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Carnahan.

               STATEMENT OF HON. JEAN CARNAHAN, 
                   U.S. SENATOR FROM MISSOURI

    Senator Carnahan. Thank you, Mr. Chairman. Thank you for 
conducting today's hearing on the anniversary of September 11 
attacks. It is appropriate that we focus our attention on 
aviation security. Today's hearings give us the opportunity to 
examine the improvements that have been made in the year since 
September 11, and also to consider the challenges that remain.
    I was interested to see a recent report detailing some 
undercover airport security tests conducted by CBS News. While 
the test raised some concerns about the reliability of 
passenger screenings, it also highlighted something very 
noteworthy. One of the airports that passed the CBS test with 
flying colors was in Baltimore, which was the first airport in 
the Nation to federalize all of its passenger checkpoint 
screeners.
    The success of the Federal screeners in Baltimore is 
encouraging, particularly because screeners at that same 
airport failed the same test 6 months ago before the screeners 
were federalized. The success of the Federal screeners may be 
attributable to better training, to the hiring of more 
qualified personnel, or to some other factors, but it remains a 
good sign. For whatever reason, I hope that the deployment of 
trained Federal screeners in airports throughout the country 
will further enhance our Nation's aviation security. That was 
certainly our intention when we passed the Aviation and 
Transportation Security Act last year.
    I hope that the TSA is on schedule to meet the November 19 
deadline for hiring Federal screeners, and I am pleased, 
Admiral Loy, that you are appearing here today before this 
Committee, and I look forward to your testimony.
    The Chairman. Thank you. Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman. I appreciate all 
your leadership on this issue, Mr. Chairman, in holding this 
important hearing, and Admiral Loy, let me be clear. It seems 
to me that on the eve of September 11, to send a message that 
key airline security deadlines are going to be set aside I 
think would be tremendously unfortunate.
    I think the public particularly have been looking at these 
reports in the last few weeks that indicate that TSA has been 
drowning in paper and organizational charts, and I gather a 
debate even about the TSA logo, and what I hope today is that 
you will articulate a strategy for addressing the key 
priorities, making sure that the deadlines are met, dealing 
with the fact that screeners have let weapons through the 
checkpoints at disturbingly high rates. I intend to ask you 
about these reports with respect to air marshals resigning. I 
am very concerned about that, because again, it is part of the 
message that is being sent to the public.
    I mean, the public, particularly this week, is going to be 
zeroing in on whether these key priorities are being met, and 
they want to see that we're doing that, rather than wallowing 
around in some sort of discussion about organizational charts 
that seem much less important.
    The last point I wanted to mention deals with the 
technology issue that Senator McCain was talking about. I chair 
the Subcommittee, with the support of Chairman Hollings here, 
on Science, and Technology, and I am just amazed at the number 
of entrepreneurs and leaders in this country who have 
innovative ideas. They have been traipsing all over Washington 
trying to get people to respond to these proposals.
    In the homeland security legislation I was able, with the 
support of Senator Lieberman, to get included a one-stop 
process, a test bed for these innovative ideas with respect to 
technology. I hope that you will follow up on that. I hope that 
we will move forward with the Homeland Security Agency, but 
when we do, we have got to have you be proactive with respect 
to tapping this technological treasure trove that exists in 
this country, and it has not been used to date.
    Thank you, Mr. Chairman.
    The Chairman. Senator Ensign.

                STATEMENT OF HON. JOHN ENSIGN, 
                    U.S. SENATOR FROM NEVADA

    Senator Ensign. Thank you, Mr. Chairman. I think this is a 
very timely hearing indeed, and thank you, Admiral Loy, for 
coming to testify today. We had a great meeting in our office 
last week, and to let the rest of the Committee know, I was 
very encouraged by some of the things that Admiral Loy talked 
to us about.
    One was that not only is the TSA very, very concerned about 
if the deadlines physically cannot be met, like at McCarran 
Airport, a power substation will not be ready to be online 
probably for 3 to 4 months after December 31. So the machines 
are on the ground. They cannot even plug them in.
    Admiral Loy wants to make sure that McCarran, like the 
other airports that physically may not be able to make the 
deadline, do not become then a target because they maybe did 
not meet the deadline, and other measures will be brought in. I 
am looking forward to hearing on the record the types of things 
that the TSA is going to do to make sure that the bags are 
screened, maybe not by the EDS system immediately, but at least 
100 percent of the bags will be screened.
    But the other thing that I was encouraged by was the 
commitment by the TSA, and once again I want to hear more about 
that today--is the commitment by yourself and the TSA, 
recognizing that we cannot at the same time hurt customer 
service. Business travel now is down 15 percent over a year ago 
with the airlines, and we know how important the airlines are 
to our economy, and we know that to eke out that last little 
bit of security, which, we can never make things 100 percent 
safe. We know that.
    Just like our roads, we have a certain amount of risk when 
we get into our cars. We cannot afford as a country to let the 
terrorists win by destroying our airline industry at the same 
time, so I was encouraged that TSA wants to put enough 
resources and the proper technologies, taking advantage of some 
of the things that we have today, to put enough personnel and 
the right types of measures into place so that the customer has 
a safe airplane to ride on, but they also get through the 
airport in a minimal amount of time so that it does not become 
a discouragement to fly on vacation, to go on business trips, 
or do whatever else is necessary.
    So I was encouraged, but I also want to not just hear the 
words. We want to see put into action the types of things that 
we talked about in the office the other day, so I am looking 
forward to your testimony today, and thank you, Mr. Chairman, 
for holding this hearing.
    The Chairman. Thank you. Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman. I am very 
pleased that we are having this hearing to try to deal with all 
of these issues. We need to streamline and improve the 
legislation that passed to try to address the aviation security 
in our country.
    If anyone says we are not safer today than we were on 
September 12 of last year, they are not traveling. They are not 
being fair, and they are not being honest. We are safer. 
Measures have been taken and have made a difference. I have 
gone through airports now that have the complete Federal system 
and screeners. I can tell you the professionalism is better, 
and so I am very pleased about that. However, I think it is 
important for us to address all of these issues together. Mr. 
Chairman, that is why I am pleased that you are holding this 
hearing and that we will have a bill that will try to address 
each issue that is, as yet, unmet.
    On the issue of airports and the deadline, it would be 
ludicrous to change the deadline for a year or 2 years for 
every airport when the vast majority can make the deadline. We 
need to make every airport as safe as we can. If there need to 
be waivers for certain airports--and I know that DFW airport 
will need some help, and McCarran, in Las Vegas, certainly 
will. There are others--we can grant waivers, and I think that 
has been your idea. It is your originality and creativity in 
saying let us winnow down the problems. Let us make sure that 
we keep the heat on for the most security that we can have 
where it can be done. I think that is the right approach.
    I also think it is very important for us to address cargo. 
If we spend billions of dollars and we inconvenience 
passengers, who have been very patient, the idea that we would 
not have some increase in cargo security in the belly of that 
airplane is outrageous. If we pass a bill that does not have 
cargo in it, Mr. Chairman, I cannot accept that. I will not 
accept that we do not deal with the whole thing at once, 
because we can.
    I am not saying that we want to curb the ability to ship 
cargo. We want cargo on our passenger flights. That could keep 
the airlines afloat. But we could have a trusted shipper 
program. We can have security clearances for the people who are 
handling cargo, just as we do for people who are handling 
baggage. Just as Senator McCain mentioned, we have a lot of 
technology available to us that can certainly be improved.
    So the bottom line is, I think we need to address this in a 
comprehensive way. We need to deal with cargo. We need to deal 
with airports separately who have a problem, and not grant 
automatic deadline increases to every airport just because a 
few cannot, achieve timely compliance. I think we are the 
responsible party for assuring that the TSA is doing everything 
it can.
    Having said that, you have been on board a very short time. 
I appreciate the enthusiasm with which you are meeting your 
challenge. It is necessary, and we appreciate that, and we are 
going to work with you. However, there is no way that all of us 
who are representing the traveling public and traveling 
ourselves would in any way try to suddenly let up on the very 
focus that we have on aviation security.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Allen.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman, for having this 
very timely hearing, and I thank Admiral Loy for coming before 
us. As you know, Admiral, this has been a tumultuous year. 
Congress has passed sweeping comprehensive legislation dealing 
with transportation security, and created a new agency. While I 
recognize you are new on the job, it is not as if there is only 
one person. Mr. McGaw was not the only one who was in charge 
and doing things, and so some progress has been made, and in 
fact we passed additional legislation on an amendment just a 
few days ago having to do with arming pilots on airplanes.
    I agree with Senator Hutchison with some of the concerns, 
and they are legitimate concerns. The bottom line is, what we 
need to understand is that our air travel is more safe now. Is 
it as safe as it ought to be? No, but it is safer, and we are 
making progress. As we are on the eve of the anniversary of 
these vile attacks, let us not turn on one another. Let us work 
constructively together. If certain deadlines cannot be met, 
let us see what can be done to get it as quickly as possible. I 
think it has taken strong leadership from the legislative 
branch, from the Bush administration, and we are also safer 
thanks to the patience and the vigilance of travelers.
    The TSA obviously faces a very daunting task of further 
enhancing security while not compromising the convenience of 
air travel. Even prior to September 11, business travel was 
down, and that was a function of the economy, not terrorism. 
Since then, business travel has dropped even more because of 
the economy, but I will tell you another reason why travel for 
all people has diminished, and it is inconvenience. People do 
not care to just doddle, in their view, in mindless reasons for 
that wait time, and that is why all of this convenience needs 
to be refined.
    As alluded to by Senator McCain, I think many of the 
answers here can be solved through the deployment of cutting 
edge technology, and that will help a great deal, and in fact I 
think technological devices are the key to the economic 
viability of the aviation industry, so Admiral Loy, I look 
forward to hearing your innovative ideas. How we are going to 
get things done, how we can deploy and acquire and utilize new 
and better technology to improve not only the security but also 
the convenience which I think is essential for transportation 
and that very strong part of our economy.
    Thank you, Mr. Chairman.
    The Chairman. Senator Boxer.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Mr. Chairman, I would like to put my 
statement in the record and just take 2 or 3 minutes of the 
Committee's time to summarize.
    Admiral, thank you very much for your hard work. I have to 
compliment you that you have been very responsive to our 
concerns, and taking calls, and I really appreciate it, and I 
also want to say that the TSA people that I met out in the 
field in August at four major airports, I thought they were top 
notch, and I want to report to the Committee that with the 
approval of the chairman and the Ranking Member I held a field 
hearing in Los Angeles Airport in August, and very quickly I 
want to talk about four things:
    The slippage of the date where we are supposed to be 
detecting bombs in baggage that goes in the cargo hold. Out of 
my four airports that were there, Los Angeles, Sacramento, San 
Diego, and San Francisco, only one of the airports is going to 
make it, it is going to be great, and the others all complained 
and whined and everything else. The TSA people agreed with me 
and with lots of others on this Committee, do not slip the 
date.
    I think it is absolutely crucial to keep to this date and 
deal with it as Senator Hutchison said, on an airport-by-
airport basis, and we should know why they cannot meet it, but 
it seems to me, and I said it then and I will repeat it, if we 
can send our troops halfway around the world, take the smart 
bombs, put them in these little caves and get after the bad 
guys and be so victorious, we can screen a bag that is standing 
at our feet for a bomb, and I really believe that, and I really 
think it just would be absurd to slip the date, in my opinion.
    Secondly, the screening points. We were very upset because 
TSA's own test showed in some of my airports 40 percent of the 
contraband was getting through. Now we have the Daily News. 
They went out there, 11 airports, they slipped through razor 
blades and box cutters and the rest, so clearly we are still 
not doing what we have to do. It is perhaps better at some 
airports, but it is not good yet.
    We touched on the trusted traveler program. I think your 
people, Admiral, very much showed that they were very 
interested in that. I think that is going to solve a lot of our 
problems, and we will not get into too many details here, but I 
hope we will.
    Lastly, we had a little high tech demonstration. We had 
companies there showing the Kevlar material that should be used 
on the doors in some of these new planes--those doors, Mr. 
Chairman, would do what you want. You could not get through 
those doors, and that material also, and this is crucial, could 
be used to hold the baggage, Admiral Loy, for a very 
inexpensive price compared to the damage you would have, hold 
the bags, and then if there was, God forbid, an explosion, 
would contain the explosion and it would not bring down the 
plane.
    And also, how to get better ID's. We need to check people's 
ID's, and there are these machines that do it in a minute.
    So that is the substance of what I learned, and thank you 
very much, Mr. Chairman.
    [The prepared statement of Senator Boxer follows:]

 Prepared statement of Hon. Barbara Boxer, U.S. Senator from California
    Good morning. As everyone knows, tomorrow is the one-year 
anniversary of the terrorist attacks. The terrorists hijacked four 
commercial jets--all of which were heading to California. I think it is 
very appropriate and important to hold an aviation security hearing 
today to determine where we are one year later.
    I can say that air travel today is more secure than it was last 
year. But, it is not as secure as it could be. And, now is not the time 
to slow down or delay our efforts to increase and improve aviation 
security. The job is not done and it must be done.
    Mr. Chairman, I want to report back to the Committee about the 
Commerce Committee hearing that I held at Los Angeles International 
Airport in August. The hearing had two parts. First, to provide an 
update about the status of meeting the deadlines at the California 
airports. We heard from the airports directors of LAX, San Francisco, 
San Diego, and Sacramento. In addition, the TSA representatives from 
each of those airports except Sacramento were in attendance. Second, 
there was a technology demonstration that included kevlar products, ID 
verification technology, and smart cards.
    In August, I discussed with the airports my concerns that the 
installation of bomb detection machines may not be completed by the 
Congressionally mandated deadline of the end of this year. Although the 
deadline is on TSA, airports need to undertake a lot of construction to 
fit the machines. LAX said that if TSA can provide the machines and 
staff, Los Angeles is on track to meet the deadline. The other airports 
want the deadline extended. I completely disagree.
    We were attacked on 9/11. We sent our troops halfway around the 
world and utilized such sophisticated weapons that we are able to go 
into caves and bunkers. No one can convince me that by the end of this 
year we can't detect a bomb in a suitcase right in front of us. We need 
these machines, and TSA needs to ensure that these baggage detection 
machines are in place by the deadline. Period.
    Another issue that was discussed at the hearing in Los Angeles was 
inadequate checkpoint screening. On July 1, the press reported the 
results of an investigation showing that checkpoint screeners at 32 of 
the nation's largest airports failed to detect weapons 24 percent of 
the time. Even more shocking, Los Angeles and Sacramento airports had 
failure rates of 41 and 40 percent, respectively.
    At the time, both LAX and Sacramento did not have federal security 
directors. I called the then-federal representatives and had some 
concerns with the response from Sacramento. But, at the time of the 
Committee hearing, the federal security director was in place at LAX 
and one had just started at Sacramento. I felt that progress was being 
made. I felt that the federal security directors were concerned about 
ensuring that the screeners did their jobs effectively.
    However, last week, we learned that the New York Daily News 
conducted an investigation over Labor Day Weekend of the checkpoint 
screeners at 11 airports, including the airports that the terrorists 
departed and others, including Los Angeles. The investigation showed 
that none of the dangerous items--box cutters, razor knives, pepper 
spray--were spotted by any airport security checkpoint screeners. This 
is unacceptable a year after the terrorist attacks. With the deadline 
less than three months away, we need to move improve the screeners. We 
cannot expect the quality of the screeners to change overnight at the 
deadline in November.
    The final issue that we discussed at the hearing was vulnerable 
spots at our airports. The breach of security at a Los Angeles airport 
ticket counter on July 4th is the key example. If El Al Airlines did 
not have two security guards at the site of the shooting, the death 
toll would have been far more devastating. I learned at the hearing 
that all of the airports were increasing the numbers and visibility of 
the police in the ticket counters areas.
    As I previously said, the second part of the hearing was a 
technology demonstration. We were shown that Kevlar could be developed 
to reinforce cockpit doors. It is already used for hardened baggage 
containers that can contain a bomb if one gets through security.
    ID verification technology was also demonstrated. I was troubled by 
a CBS news investigation that showed people getting through security 
with fake IDs. Therefore, I have introduced legislation to provide for 
training of airline personnel in the detection of fake IDs and to 
provide for the deployment of technology at airport security 
checkpoints, which would determine if a passenger had a fake ID or not.
    Finally, I briefly want to discuss air marshals. Since I wrote the 
provision of the law that air marshals shall be on board all high risk 
flights, with priority given to non-stop, long-distance flights, this 
is extremely important for me. Since the number of air marshals is 
classified for security reasons, I can't discuss exact numbers. I can 
say that we are making good progress for air marshals. But, we have a 
long way to go in my opinion.
    I know that we have a lot to get done. We owe this to the American 
people to ensure their security when they fly. We must work swiftly to 
ensure the deadlines are met.
    Thank you, Mr. Chairman.

    The Chairman. Thank you very much. Senator Cleland.

                STATEMENT OF HON. MAX CLELAND, 
                   U.S. SENATOR FROM GEORGIA

    Senator Cleland. Admiral Loy, thank you very much for 
taking on this tremendous responsibility. May I just say that I 
come from a State that has the busiest airport in the world. 
Some 200,000 passengers a day go through Hartsfield, and we 
thank you very much for your coming down to Hartsfield and 
visiting Ben DeCosta, the airport manager there, so whatever 
happens in the world of the airline industry, whatever happens 
in the world of airports in America happens in great spades to 
Hartsfield, so we look forward to your testimony, and how we 
work this problem of increased security but also increased 
customer convenience.
    When I supported the airline security legislation and 
coauthored it I thought that professionalizing the screeners 
was an answer to enhance security and also customer 
convenience, and also I did support the idea of checking bags 
that went into the hold of an aircraft, and so in many ways, 
from throwing a hat over the wall we just have to now go get 
it, and we look forward to your testimony as to how we do that.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you. Senator Brownback.

               STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Thank you, Mr. Chairman. Thank you for 
holding the hearing. Thank you, Admiral Loy, for being here to 
testify. I want my full statement entered into the record.
    Admiral, I just want to add my 2 cents worth onto several 
comments that have been made so far about the importance of 
this job, and being able to provide security without hassling 
people. I hope we are looking at ways that the things that we 
are doing are adding to security, not just adding to people's 
hassle factor. It seems like sometimes when I am going through 
airports, I have been inspected, and this was before TSA was in 
position at this particular airport, my own bag four times, and 
I wonder if that really added to the security or not.
    Now, maybe I just look like a character that you ought to 
inspect four times, I do not know, and that can be a problem, 
but it seems like right after September 11 we just launched 
into a lot of security items that really probably did not make 
a whole lot of sense, if you really were to thoroughly think 
about it and try to be very efficient. And I hope that you 
continue to look at efficiencies and effectiveness with this as 
well so we can make sure that people who are traveling, travel 
in safety but are not hassled as much.
    A second and narrower item that I would hope you would look 
at are some of the airports in my State. One that is the major 
supporter for my State but actually located in Missouri is KCI. 
They have had some questions about working with your 
organization, that you provided them input for what they needed 
to do on an interim basis but not permanent solutions. They are 
looking at investing hundreds of thousands, possibly millions 
of dollars to do something, and they do not want just an 
interim solution.
    They want to make sure that what they are putting forward 
is a permanent solution when they put forward this amount of 
funding. They have contacted us, and I am sure they have 
contacted Senator Carnahan as well to get a response. I know 
your organization is just getting up and going, but they have 
not been able to get, okay, here is the permanent solution, so 
if you do invest those dollars, this is what we will agree that 
you are required to do.
    You are just up and going new. I can understand some 
difficulties with that, but I think you can also understand 
what these airports are going through as they are trying to 
meet a very rapid, aggressive deadline, and I would hope you 
could work specifically with those airports as well.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Brownback follows:]

   Prepared statement of Hon. Sam Brownback, U.S. Senator from Kansas

    Tomorrow will mark one year since that fateful day when America was 
attacked using our own aircraft as weapons. Since then, a lot has 
changed in America and specifically a lot has changed in the way 
Americans travel. Since September 11th, the traveling public has been 
subjected to increased security throughout all of our nation's 
airports. We are all well aware that some of the changes have truly 
improved security and the potential for another terrorist attack. And 
unfortunately, we are also aware, that some security implementations 
have not resulted in the increased security they were intended to 
provide. Today, I am looking forward to hearing Admiral Loy's 
assessment of the status of Aviation Security in America.
    In the days immediately following September 11th a lot of security 
decisions were made very quickly. With one year of reflection on these 
security issues, we now have the responsibility to reassess what is 
working and what, frankly is not. While it is our duty to help secure 
America's skies, we must do so keeping in mind the fact that airlines 
are going bankrupt, Americans are traveling less, and will continue to 
do so if they see flying as more of a hassle than a convenience. 
Finding that intricate balance between our security obligations and 
providing a convenient service is key to the issue of aviation 
security.
    The purpose of this hearing is to assess the current status of 
aviation security. Highlighted today is Senator's Ensign's legislation 
to provide flexibility in the screening of checked baggage. While I 
understand there have been complications in implementing the standards 
set forth in the Aviation and Transportation Security Act, I think it 
is important to note that aviation security is not something that can 
be considered lightly. Even more so, the delay or postponement of 
aviation security must be considered with great responsibility. It is 
my hope that today we will learn exactly what the status is of 
screening all checked baggage in America's airports. Threats remain 
that this deadline will not be met by all of our nation's airports. 
However, I hope we can leave here today with a clear understanding of 
the reality of meeting this deadline and the start of solutions to any 
problems that may be encountered with that.
    Additionally, I am glad to have Admiral Loy with us today to 
testify. It is my understanding that many agencies, congressional 
staff, airports, and airlines have experienced frustration in dealing 
with the Transportation Security Administration. Hopefully today 
Admiral Loy can clarify why it takes so long to get answers from his 
agency and explain to us some of the difficulties we may not be aware 
of. While I understand that he is new to this position, it is now his 
responsibility to bring TSA up to the standards expected of an agency 
who's mission is to provide for the security and safety of America's 
traveling public. I look forward to addressing some of these issues 
later in the hearing.
    I'd like to thank Admiral Loy for being here today and hope we will 
come away from this hearing with renewed confidence in our nation's 
aviation transportation security.

    The Chairman. Senator Rockefeller.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Thank you, Mr. Chairman.
    Admiral Loy, I welcome you, and I am very happy about the 
work that you are doing. I do not know how many others there 
are on the Committee or not, and it is not really of great 
concern to me. I am not one of those who think that dates 
overrule doing the job well. I perfectly well understand that 
if you sort of eliminate all dates it sends a bad signal. I 
think it sends an even worse signal if we try to meet dates and 
do the job poorly.
    Now, we have got both the screeners and the EDS, the trace 
devices. I am extremely interested that the trace system takes 
probably about four times as much time to do per bag as the 
EDS. On the other hand, I also understand the problem of cost 
and the problem of getting into smaller airports, the weight, 
the cost of the machine, much less of the installation thereof, 
much less the fact that it might go right through the floor 
into the basement.
    So I am interested in the how, when, where, how much aspect 
of this, but above all, I am interested in making sure that our 
airports are really secure when we do them and that we do not 
fool either each other or the American public when talking 
about if it is not done by a certain mandatory date, that 
therefore all Americans must lose confidence because it has not 
been done.
    Well, we set the dates--we are not experts. I was on the 
conference Committee. We set the dates for discipline and 
impetus. We did not set them for all-time excellence of 
knowledge of what it would take. You have that. Your people 
have that, and so I am interested in where you see that mix is, 
and how you think you can best handle it.
    Mr. Chairman, I thank you.
    The Chairman. Thank you. Senator Breaux.

               STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Very briefly, Mr. Chairman, thank you for 
having the hearing. I do not think we could have a better 
person at the helm of this ship than Admiral Loy, and I think 
most of our Members also feel the same way.
    Admiral, I do not think I possess a single piece of 
clothing that has not been seen by an airport screener, I mean, 
like every time I go through. It must be the way we make our 
reservations or something. A lot of it is one-way tickets made 
the same day of the travel, and I would be interested in having 
your thoughts about this concept of trying to have a program, I 
guess, for regular travelers who sort of are prescreened or 
something like that.
    I think an awful lot of Americans, not just Members of 
Congress but the traveling public who have some type of a prior 
screening would be able to not have to delay the line so that 
you could do the work in the most efficient fashion. I would be 
interested in your comments on that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, I am sure it has been said 
here before, there has to be a more efficient way to approach 
this whole problem as most of us, we fly at the last minute and 
we have a one-way ticket, and most of us get searched, and that 
is just time that they are not spending trying to find the bad 
guys.
    Thank you for calling the hearing.
    The Chairman. Thank you. Admiral Loy, we have your full 
statement. It will be included in the record and I, for one, 
have welcomed these opening statements, because Admiral, you do 
have the concern of the Committee Members first-hand, and you 
are the only witness now here today. Let us hear from you what 
you need from us.

        STATEMENT OF ADMIRAL JAMES M. LOY, ACTING UNDER 
           SECRETARY OF THE TRANSPORTATION SECURITY 
          ADMINISTRATION, DEPARTMENT OF TRANSPORTATION

    Admiral Loy. Thank you very much, Mr. Chairman, and I would 
almost like to just go back through the notes that I took as I 
listened to each of you make your opening comments. I think I 
would like to defer that and interchange with questions, but 
clearly the things that are on your mind are the things that 
are on my mind.
    Mr. Chairman, I will make a comment about your personal 
opening statement, because I think one of the most important 
things that I, too, would like to get out of this hearing is a 
commitment with each other to step forward together and pull in 
the same harness together, rather than what has appeared to 
have been an unfortunate set of exchanges that just do not get 
us anywhere and do not make any progress.
    It is always a great personal privilege, Mr. Chairman, to 
be called before the United States Senate, and it is my 
particular honor to speak with you this day on the brink of our 
Nation's historic anniversary of September 11. This has been a 
year of heroes and healing of actions and reactions of 
perseverance and of patriotism. Last night, I attended the 
second concert for America. It was a rush of patriotism and 
celebration and mourning.
    Renee Fleming, the noted opera star, sang a very familiar 
refrain for all of us. Walk on with hope in your heart, and 
you'll never walk alone, she said. Not being alone is about 
overcoming fear, and fear is lonely, and we all experienced it 
in this past year. The evil ones inserted it into our routine 
lives, and our challenge together as legislator and executive 
is to translate fear back into confidence for the American 
people, and at TSA we are now keenly aware that the evil ones 
tried to take away mobility from Americans, and I would offer 
that that has always been one of our inalienable rights.
    Our goal at TSA is to restore mobility to Americans, to 
restore confidence in our transportation system, and I have 
been there a short 7 weeks, and find a workforce dedicated to 
that goal. Good people, Mr. Chairman, working as hard as I have 
ever watched anyone work, and doing so in a fish bowl, where 
their every move is examined very closely and very quickly.
    I was proud to serve this country in uniform for 42 years, 
and I am equally proud to help this team tackle the assignments 
defined by Congress and the President and to build programs and 
systems that will make us all proud, and just as this was the 
case in uniform, we need help from many quarters to accomplish 
this work. Stakeholders must make their contributions, and I 
have heard many of you say that this morning. Employees must 
give more than they ever thought they had to give. Trade 
associations must cooperate, and the Congress must help us 
stand tall, and I want my last years of public service to be as 
rewarding as those first 42, and the only way that is going to 
happen is to build the bridges of understanding among those 
aforementioned players that will optimize our mutual efforts to 
serve our country.
    Good timing is critical, and I cannot think of a better 
time to tell you about the progress of TSA. Secretary Mineta 
told me that my job was to lead TSA to provide world-class 
security and world-class customer service. To begin, I want to 
offer a leadership approach to this Committee. TSA will 
heretofore conduct all business under this particular modus 
operandi.
    First, our communications, mentioned by many of you, 
whether by phone, by letter, or by face-to-face meeting, will 
be forthcoming. It will be laden with accuracy and timeliness. 
All policy processes now include gathering input from impacted 
stakeholders. I intend to continue to establish and maintain 
critical stakeholder relationships, and have incorporated the 
concept of stakeholder relationships and have incorporated the 
concept of stakeholder outreach and collaboration into the 
working culture of this new organization, especially at 
headquarters and, of course, in the field.
    Next, TSA will work under a technically savvy performance 
management information system. We want very much to take 
advantage of every one of those technological advances that you 
have mentioned. All our employees are accountable for their 
actions, and the results are compared against expectations that 
I have offered them. Performance assessment will assist us in 
best use of the taxpayer's dollars and managing our human 
resources, working within our budget, researching and 
developing our technology, and setting policy and process.
    Thirdly, we will never assume we have got the job done. 
Continuous improvement will be ingrained in all that we do. We 
will always be better tomorrow than we are today, while these 
principles will require excellence in listening and sensitivity 
to concerns from the public, from our partners in aviation and 
in other transportation modes, and from those Members of our 
congressional conscience.
    As of this week, 25 of our 50 States now have Federal 
screeners and a total of nearly 100 airports. TSA has announced 
145 Federal security directors responsible for over 380 of our 
Nation's 429 airports. We have about 700 people in our 
headquarters staff, a mere 3 percent of our organization, and I 
would like to show you two quick screens reflecting both 
screeners' and airports' progress.
    Much has been said in the press and elsewhere as to whether 
or not we will even remotely approach these deadlines that have 
been set by the Congress. I want you all to know that we take 
those deadlines very seriously, and these are just two 
depictions of workforce first and airport second, associated 
with that progress.
    By the end of this week, we will have hired nearly 32,000 
screeners, and I am confident that we will meet the November 19 
deadline for federalizing passenger screening, and I am 
particularly thankful for the comments made by several of the 
Members with respect to their experience with those federalized 
screened checkpoints.
    We are working to reduce the so-called hassle factor that 
Senator Ensign mentions. The longstanding two questions have 
gone away. Passengers can now carry certain beverage cups 
through security checkpoints. No one will be asked to drink or 
eat from a container to prove that it is okay. We are working 
with airports and airlines on streaming checkpoint 
configurations and processes. We are reaching out to better 
communicate to travelers on how best to prepare for airport 
security. I am absolutely convinced if people's expectations 
are met they will then be less hassled by what it is they 
encounter actually at an airport.
    With feedback from our stakeholders, I am committed to 
lowering those hassles and raising the security and customer 
service. This common sense approach is alive and well, and I 
will make it thrive in TSA.
    You might be surprised to see the inventory of items 
intercepted. This slide offers just a couple of notions of 
things that we have taken from checkpoint screening processes 
over the course of the last several months. You might focus in 
one number there, 25,000 box cutters picked up through airport 
screening at our airports since the tragedies of last 
September. This offers to me a challenge of both education to 
the traveling American public as to what it is they can and 
cannot bring through the airport, but it also continues to 
offer us a challenge of enforcement.
    I have a few important requests for your consideration. We 
were disappointed with the reduced funding of the recent 
supplemental appropriations. However, we have moved quickly to 
review our budget and to scrub our business plan. Some real 
one-time savings were identified, and some items were rolled 
forward into fiscal year 2003. Staffing models were scrubbed 
for efficiency and real need. Checkpoint model adjustments are 
reflected in a handout that we have provided to you, and on 
this slide. It is very difficult to see. Perhaps it would be 
easier if we--I think we brought a poster board model of it, 
but if you could just refer to what is in your handout, that 
would really be fine.
    There is a large checkpoint model and a small checkpoint 
model, and you can see there that we have identified in both of 
those cases positions that had been designed into the 
checkpoints early that we really do not think we need in terms 
of efficiency and effectiveness. Those are multiple thousand 
position savings that we are about the business of designing 
into our business plan.
    Decisions were taken on the basis of much better 
information in the results of this business plan review than 
was available 6 months ago when they were estimated. As a 
result of all of this, and looking very carefully at the 
budgets for both 2002 and 2003, the President has approved and 
sent forward to the Congress a $546 million budget amendment. I 
request your support as the Committees finalize TSA's fiscal 
year 2003 appropriation.
    Our success simply depends on fully funding this current 
plan. That support should also include reconsidering the limit 
of 45,000 full-time employees imposed by the supplemental. 
Obviously, look at the appropriations request for 2003, and I 
am happy to answer any questions about that in the Q&A.
    Lastly, I am very concerned about cash flow in the first 
quarter of fiscal year 2003. Our deadlines are focused early in 
that fiscal year, and any lengthy continuing resolution would 
be severely limiting in our ability to meet those goals if the 
normal processes were followed. I would seek your support for a 
customized CR if there must be one for the transportation 
appropriation this year.
    Let me mention briefly three controversial issues, and then 
take your questions. First, deadlines, which virtually every 
one of you has mentioned. It should be noted that TSA has met 
every deadline in the Aviation Transportation Security Act up 
to this date. Again, a line diagram in your handout shows those 
deadlines met.
    The next important one is the November 19 deadline for 
passenger checkpoint screening. It will also be met. The 
December 31 deadline for baggage screening will be met in 90-
plus percent of those 429 commercial airports. There are some, 
among the balance, where lost time, lost budget, and very, very 
real engineering challenges make it virtually impossible to 
make that deadline.
    I want to work with the Congress to find the right approach 
to dealing with those airports. At the very least, they will 
have a robust interim system of inspection while a final 
solution, probably in-line EDS, is completed, and again I will 
be happy to elaborate during the questions and answers.
    Second, Federal air marshalls. Much has been written about 
our Federal air marshall program, and I am sure you have 
watched my exchange with the USA Today. I personally briefed 
Senators Boxer and Burns, and would be delighted to do the same 
privately for any Committee Member with the chairman's 
permission, or with the Committee as a whole if you would so 
choose.
    Suffice it to say here that this is an enormous success 
story for this organization, coming from where we were to where 
we are today. I do not sit here and suggest that we have come 
everywhere that we need to come, in terms of numbers of Federal 
air marshalls deployed, and flying on those critical long 
distance routes that are the part of the concern that prompted 
ATSA to begin with, but I will say here that there is an 
unprecedented number of extraordinarily dedicated and well-
trained professionals providing security aboard U.S. airliners. 
Their morale is superb, and I am proud of them and their 
services, and all Americans should be as well.
    Lastly, guns in the cockpit. Although I certainly recognize 
numbers when I see them, and 87 for 6 is a pretty significant 
number, I recognize as a result the overwhelming congressional 
support for arming pilots, but I must ask that you carefully 
consider the concerns that I offered in a letter to Senator 
Hollings late last week. There are issues here about cost and 
liability, international jurisdiction, and other such things, 
and I ask it again that we work together, perhaps with the 
conferees, on this proposal. How this program is implemented is 
critical to aviation security, and again I will gladly 
elaborate in Q&A.
    Tomorrow is the first anniversary of arguably the worst day 
in American history since Pearl Harbor. Survivors of the USS 
ARIZONA still have their ashes lowered into the muzzle of those 
great guns in that great ship to join their shipmates left 
behind 60 years ago. Equally emotional stories are being told 
about the World Trade Center, the Pentagon, and the field in 
Pennsylvania. Our challenge is to rise above the din, and with 
cold efficiency focus on our assignment to turn fear back into 
confidence.
    A great article in Newsweek this week grades our efforts so 
far. It gives aviation security an A, unlike the report in the 
Washington Post this morning, but despite the well-chronicled 
fits and starts, the author of that Newsweek article predicts 
that we will end up meeting our deadlines at most airports and 
will ultimately be praised as a rare model of Government 
efficiency that truly works, and I am here to tell you this 
morning that description is precisely my goal. I need and look 
forward to your constructive criticism. I welcome, always, your 
great ideas and support.
    Thank you for listening. I am prepared to answer your 
questions.
    [The prepared statement of Admiral Loy follows:]

 Prepared statement of Admiral James M. Loy, Acting Under Secretary of 
       the Transportation Security Administration, Department of 
                             Transportation

    Good Morning Mr. Chairman, Senator McCain, and Members of the 
Committee. I am pleased to testify before this Committee in a new role 
as the Acting Under Secretary of Transportation for Security and the 
head of the Transportation Security Administration (TSA). As you 
commented at the July 25th hearing, Mr. Chairman, when I accompanied 
Secretary Mineta and Deputy Secretary Jackson, I am adjusting to 
wearing a business suit rather than my familiar Coast Guard uniform, 
but I am the same person--focused entirely on the mission that the 
Secretary has assigned to me--assuring the security of our Nation's 
transportation systems.
    I appear before this Committee today with a heavy heart and with 
added determination. I am mindful that tomorrow is the first 
anniversary of that terrible day when so many Americans lost their 
lives as part of the war that terrorists have declared on America. My 
heart goes out to the families, friends and loved ones of those who 
perished on September 11. Their loss has steeled our determination to 
do our duty and to fulfill the responsibilities that the President, 
Congress, and the American people have entrusted with us. We will not 
fail you.
    This Committee is very aware of the challenges that are facing TSA. 
We are building a world-class agency from scratch, assuming new Federal 
functions and implementing our responsibilities under stringent 
deadlines, and we are doing so in the glare of the public spotlight. 
This is highlighted by the series of articles that appear in the press 
throughout the country virtually every day. I am proud of our 
performance so far, of the dedication of our employees and contractors, 
and I am grateful for the support from our many stakeholders and from 
this Committee. I particularly appreciate the welcome letter I received 
from you, Mr. Chairman, as well as those from Chairman Young and 
Chairman Rogers from the House of Representatives.
    When I assumed the helm at TSA I was concerned about the perception 
of TSA among our stakeholders as an aloof or arrogant agency that had 
only one way of doing business--``My way or the highway.'' I have 
dedicated much of my efforts over the past seven weeks in building 
relationships with these stakeholders to assure them that TSA fully 
expects to work in a collaborative arrangement with all of the 
stakeholders who have interests in the national transportation system. 
While the primary focus this first year has been in the aviation arena, 
TSA is also working diligently with the stakeholders concerned with 
maritime and land transportation security. I am pleased that I have an 
outstanding leader in this field, retired ADM Richard Bennis, to head 
this important office within TSA.
    As an indication of my outreach efforts since I became Acting Under 
Secretary seven weeks ago, I have visited a number of airports across 
the country from Logan International Airport in Massachusetts to 
Seattle-Tacoma International Airport in Washington. I have met with 
numerous Airport Directors including those at Logan International 
Airport, LaGuardia Airport, Newark International Airport, Hartsfield 
Atlanta International Airport, Dallas-Fort Worth International Airport, 
Miami International Airport, Seattle-Tacoma International Airport, San 
Francisco International Airport, and Los Angeles International Airport, 
among others. I held meetings with the CEOs and other senior officials 
from a number of air carriers including American Airlines, Delta 
Airlines, Southwest Airlines, Alaska Airlines, AirTran Airways, and 
Miami Air, a large charter operation in Southern Florida. I look 
forward to meeting other airport directors and carriers as I continue 
my outreach efforts with site visits in the coming months. While in 
town, I have met with Carol Hallet of the Air Transport Association 
(ATA) several times, Chip Barclay of the American Association of 
Airport Executives (AAAE), David Plavin of the Airport Council 
International--North America, the Air Line Pilots Association and the 
General Aviation Manufacturers Association (GAMA), and just last week I 
met with the Regional Airline Association and the Air Carrier 
Association of America. Yesterday I met with Phil Boyer from the 
Aircraft Owners and Pilots Association (AOPA). I have also been 
fortunate enough to participate in two in-depth meetings with numerous 
Airport Directors to discuss overarching issues as well as specific 
concerns regarding the work TSA is conducting in airports across the 
country. I am also grateful to have had the opportunity to spend some 
time with the Victims of Pan Am Flight 103, an organization 
representing many of the families of the victims of that terrible 
tragedy. I have also met with many Members of Congress and I intend to 
do more of that. In each case I heard from these important stakeholders 
about their concerns and what their suggestions are on how TSA should 
interact with them.
    TSA has made great progress since its inception. As of this week we 
will have deployed federal screeners to almost 100 airports. This 
includes 23 airports that we transitioned from contract screeners to 
federal screeners in part or in full last week. This week alone we are 
engaged in deploying federal screeners at all or portions of 11 more 
airports including airports in a number in states represented by 
Members of this Committee such as San Antonio International Airport in 
Texas; Richmond International Airport in Virginia; Portland 
International Airport in Maine and portions of Logan International 
Airport in Massachusetts. I might add that two weeks ago we deployed 
federal screeners at Charleston International Airport in the Chairman's 
home state of South Carolina. By the end of August we had hired 26,845 
screeners. That number should increase to approximately 32,000 by the 
end of this week. These screeners have been carefully selected and must 
pass stringent qualifying tests. Many applicants have not made the 
grade. Those that have are well trained for their important 
responsibilities. If Congress provides the budget resources and 
operational flexibility requested by the President, I am confident that 
we will meet the November 19 deadline for providing for federal 
screeners at all commercial airports in the United States.\1\
---------------------------------------------------------------------------
    \1\ The Aviation and Transportation Security Act requires the 
establishment of a pilot program under which the screening of 
passengers and property at selected airports will be carried out by a 
qualified private screening company under contract with the TSA. TSA 
requested applications of airports interested in participating in the 
pilot program. The TSA selected the following five airports: San 
Francisco International Airport, Kansas City International Airport, 
Greater Rochester International Airport, Jackson Hole Airport, and 
Tupelo Airport. On July 21, 2002, we issued a Presolicitation Notice 
requesting interested companies to submit a capabilities letter. The 
Presolicitation Notice briefly outlined the program needs and the 
minimum requirements for companies to qualify to participate in the 
program. On August 13, 2002, we issued the Request For Proposal (RFP) 
to all of the companies that submitted capabilities letters. The RFP 
contains all of the requirements of the program and the requirements 
for submitting a full proposal to participate in the program. All 
proposals are due to the TSA by September 6, 2002. We anticipate 
awarding a contract or contracts for screening at all five airports by 
October 1, 2002.
---------------------------------------------------------------------------
    The December 31 deadline for screening all checked baggage for 
explosives by using explosive detection systems (EDS) is more 
difficult. This Committee is well aware of the concerns raised by some 
airport operators that pressing forward with the December 31 deadline 
will result in unacceptable delays for airline passengers and added 
costs for airports. However, I must balance the concerns of the airport 
operators with the very real security concerns that this Committee 
expressed when it wrote this provision into law. We are under threat 
from terrorists who have made it clear that they will stop at nothing 
to kill Americans, to damage our economy, and to destroy our confidence 
in our ability to move freely about the country and around the world. 
Therefore, I do not support a wholesale delay in the December 31 
deadline. We must deploy explosive detection systems at all of our 
airports as soon as possible. I will work with each airport to invest 
wisely in the solution that best meets the intent of the law. The 
December 31 deadline enables us to focus our efforts. In a small number 
of airports it may be necessary to push back the deadline for a modest 
amount of time, while temporarily putting in place other methods of 
screening checked baggage. Mr. Chairman, I would like to work with you 
and this Committee on a solution that fits within the context of a 
raised security paradigm throughout the aviation system.
    I would like to take this opportunity to debunk some of the 
inaccurate and inflammatory reporting that has been recently published 
regarding the Federal Air Marshal (FAM) service. This reporting has 
dishonored the thousands of men and women who are selflessly protecting 
our travelers today and every day. My staff has previously provided 
some Members with a closed briefing on the FAM service. I will offer 
you another closed briefing if you believe it would be helpful. 
Contrary to these press reports we do not have a high attrition rate, 
nor do we have a lack of ammunition, nor do we have unqualified FAMs, 
nor do we have FAMs that are not assigned to flights for weeks at a 
time. I do agree that being a FAM is a difficult job. For some who 
volunteered for this demanding position it is not what they expected it 
to be. I fully understand and respect that. For those disappointed 
individuals we can come to an honorable parting of the ways. I am proud 
to state that for the overwhelming majority of the dedicated Americans 
who responded to the tragedies of September 11 and the call to service 
by joining the FAM service, they are quiet professionals doing their 
duty. TSA is completely supporting them and they completely support 
aviation security. This Committee and the traveling public should 
understand that the FAM service is providing the largest, highest-
quality, best trained, and most professional protective force in 
American aviation history.
    I am also pleased with the progress we have made in hiring 158 
Federal Security Directors (FSDs) that will be deployed at our largest 
airports. As of now, we have 147 FSDs on board. Those FSDs will in turn 
have 105 Deputy FSDs who will assist with the management of some of the 
smaller airports. As of late August we had made job offers to 
candidates for 45 of these positions. This data changes every day as we 
continue to recruit and fill these important positions. I realize that 
some Members of this Committee have expressed concern about the length 
of time it took to recruit, hire, train and deploy FSDs for particular 
airports. I understand the concern but this process has actually gone 
remarkably well considering the number and location of the airports and 
the fact that all of the individuals we selected were employed in other 
important jobs. I expect to complete the process of hiring FSDs and 
their key support staff very soon. I encourage you to meet with the 
FSDs that are assigned to airports in your respective states. They are 
also available to assist your staffs in resolving constituent issues 
concerning airport security. I am sure they will be happy to arrange 
tours of the airport security facilities at an appropriate time.
    As part of my plan to bring common sense into the aviation security 
area I have charged my staff with taking aggressive steps to reduce the 
``hassle factor'' at airports and eliminate what I call ``unnecessary 
rules.'' I have revised the policy on passengers carrying beverages 
through security screening checkpoints. We will now allow paper or foam 
polystyrene cups to pass with the passenger through the metal 
detectors. Factory sealed or closed plastic, metal, glass, or ceramic 
containers are permitted through the x-ray machines. We will not, 
however, allow open cans of soda or other beverages through the 
screening checkpoints. We are also reminding all of our screeners, 
including both TSA screeners and contract screeners, that they are 
prohibited from asking passengers to drink or eat from any containers 
of liquid or food as a security clearance procedure.
    A second common sense change that we have made is to eliminate the 
16-year-old questions asked at ticket counters and at curb-side check-
in whether the passengers had control of the bags at all times or had 
been asked by others to include items in their bags. These questions 
have not proven to enhance security. By eliminating them we will speed 
up the check-in procedure so we can then more quickly move the 
passengers to the secure areas of the airport.
    We have also published very clear guidance on our website for the 
traveling public to use. This easily understandable, yet comprehensive 
guidance, separately lists prohibited items that passengers may not 
bring through security checkpoints and onto airliners and also items 
that are permitted in aircraft cabins. It contains guidance on travel 
for people with disabilities and guidelines on traveling with children, 
as well as information on boarding aircraft, and general ``Dos and 
Don'ts'' for travelers. This is excellent information that I encourage 
all travelers to read. We also have standardized signs at airports 
nationwide at the screening checkpoints, reminding passengers of the 
prohibited items. Notwithstanding the public availability of this 
information in advance, our airport screeners are still intercepting 
large numbers of prohibited items. Our field reports state that in July 
of this year alone we intercepted at least 122,763 knives, 234,575 
other types of prohibited cutting devices, 4,631 box cutters, 5,201 
incendiary devices, and 228 firearms through passenger security 
screening. From February 2002 through July we have intercepted a total 
of more than 2,300,000 prohibited items. Mr. Chairman, these numbers 
speak volumes about the public's continued confusion on what is 
prohibited from air travel under current circumstances. TSA will 
continue to publicize this information to better educate the flying 
public. We are partnering with aviation stakeholders to help 
communicate these messages.
    I will continue to challenge my staff, and our stakeholders, to 
point out other unnecessary rules that we can eliminate or modify, 
while not diminishing our security posture.
    I know that this Committee is very interested in our moving forward 
with a trusted traveler program, which you have given me the authority 
to implement. I am going to refer to this program from now on as the 
``registered traveler'' program. I am convinced that we can balance the 
needs of security with common sense for those who agree to register for 
this program and submit to a detailed background check. Frequent fliers 
make up a large percentage of the air traveling public. By enrolling 
many of these frequent fliers as registered travelers all air travelers 
can benefit. First of all, for those who register with the program and 
pass scrutiny, we will know more about them from a security standpoint 
than anonymous passengers who present themselves to our screeners at 
the airport. This enhances aviation security. Secondly, by allowing the 
registered travelers to pass more quickly into the secured areas, this 
will ease congestion at the checkpoints and reduce overall waiting 
times for the registered travelers and for the traveling public that 
does not participate in the registered traveler program. Third, we will 
be able to reduce the hassle factor for those registered travelers. 
Finally, by implementing a registered traveler program we may be able 
to better utilize our airport workforce.
    However, our ability to move forward with a registered traveler 
program at this time is hampered by the restrictions that the 
Appropriations Committees placed on our plans to move forward with a 
Transportation Worker Identification Card (TWIC). The Conference Report 
on the Supplemental Appropriations Act directs that TSA not proceed 
with any further plans to implement a TWIC. This impacts on our plans 
to use a similar type of card for registered travelers. Mr. Chairman 
and Senator McCain, I would like to work with this Committee and with 
the Appropriations Committees to remove this obstacle.
    I also would like to report progress on a matter that I know is of 
great concern to this Committee. That is the strengthening of cockpit 
doors to prevent forced entry into an aircraft's cockpit. You are aware 
that this project is the responsibility of the Federal Aviation 
Administration (FAA) although obviously, from a security standpoint, 
TSA has a great interest in ensuring that the project is successfully 
concluded. FAA has advised me that they are well on the way to 
approving designs for a retrofit of the cockpit doors for many 
airplanes and they expect to approve the designs for almost all of the 
remainder during the fall. Aircraft manufacturers are producing the 
required cockpit door kits. The key issue comes down to scheduling the 
aircraft to be out of service for the several days necessary to install 
the new equipment. Given today's market conditions, air carriers want 
to make sure they do not take aircraft out of service to the detriment 
of their business. The addition of bolts, locks, and bars to cockpit 
doors has already substantially increased cockpit security. The 
completion of this task will alleviate any continuing concern that this 
Committee may have had about this issue of aviation security. By the 
way, Mr. Chairman, I agree with your views that once the plane leaves 
the gate the doors must remain shut, save for essential access only. 
That is our policy and we shall enforce it.
    I would like to discuss the status of the TSA budget. We were 
disappointed with the reduced funding provided in the recently approved 
FY 2002 supplemental appropriations. Upon approval of the supplemental, 
however, we moved quickly to review our budget and decrease our 
estimates to the approved level. We will closely monitor our 
expenditures and control costs as we continue our airport rollout 
operations over the next few months.
    Our success in FY 2003 is largely dependent on receiving the $4.8 
billion in funds the President requested for TSA, plus an additional 
$546 million in funds in the budget amendment forwarded to the Congress 
last week. My staff and I will work closely with the Appropriations 
Committees on the entire FY 2003 budget. I pledge to cooperate fully 
with the Committees as they finalize FY 2003 TSA appropriations. I 
would be grateful for the support of this Committee for our TSA budget 
request as the appropriations process moves ahead.
    I would also appreciate support from this Committee in ensuring 
that the cap on hiring more than 45,000 full-time permanent employees 
does not carry over to the FY 2003 appropriation. While we can manage 
within that cap during FY 2002, we would simply be unable to meet our 
core statutory requirements of the law for baggage screening if this 
limit remains in place past this month. If this limit remains, we would 
halt plans for hiring baggage screeners, and would likely be forced to 
warehouse EDS equipment that is now on order.
    An advantage of being a start-up organization is that TSA was able 
to begin tackling its mission with a clean slate, allowing us the 
ability to design and implement an organization dedicated to excellence 
from day one. We will have an outstanding and diverse workforce of 
employees that are working for us because of their commitment to 
protecting the American people. TSA is committed to being a 
performance-based organization, that is an organization whose culture 
establishes performance expectations that support the mission; drives 
those expectations into organizational and individual performance 
goals; and collects data to assess our performance. We have fielded an 
interim Performance Measurement Information System (PMIS) to facilitate 
this commitment. The PMIS provides timely information to help ensure we 
meet our mandate to federalize transportation security. This same 
system is also providing information on security activities in the 
field and supports our airport Federal Security Directors as they 
manage their operations.
    I would now like to briefly address our research and development 
program. I know that the Members of this Committee are very interested 
in ensuring that we are developing the best possible technology to use 
in transportation security and that we are investing in equipment that 
enhances security while effectively using the taxpayer's money. We are 
making progress in this area, although there clearly is no ``magic 
bullet'' on the near-term horizon. TSA is leading efforts to develop 
next generation technologies for use at airport checkpoints and to 
inspect checked bags. We are developing methods to help us control 
access to airport perimeters and ensure that only authorized people are 
allowed in secure areas. We are continuing our efforts to optimize 
human performance by improving screener selection, training and 
evaluation methods. In addition we are beginning to expand our research 
efforts in order to assess the terrorist threat to all transportation 
modes, particularly as it relates to cargo. We expect these R&D efforts 
to result in our ability to test and phase in new generations of 
equipment over the next 2 to 7 years. During Fiscal Year 2003 we plan 
to invest an additional $130.4 million dollars in our R&D program. I 
would like to highlight two aspects of our R&D program: the development 
of the CAPPS II system and the development of the ``EDS Next 
Generation'' of explosive detection systems. In Fiscal Year 2002 TSA 
devoted $45 million to CAPPS II. We have programmed an additional $35 
million for Fiscal Year 2003. For the EDS Next Generation we are 
seeking $100 million in Fiscal Year 2003. Fifty million dollars of that 
amount is contained in the President's initial budget submission for 
TSA. The other $50 million is in the Budget Amendment for Fiscal Year 
2003 that the President recently released to the Congress.
    I would now like to turn to an area of great controversy in the 
Congress and in the public's eye. That is the issue of arming pilots 
with firearms to defend the flight deck of commercial airliners. I 
realize that this is a very emotional issue and that reasonable people 
can differ on how best to provide the full measure of security on 
commercial airliners that our Nation deserves. I also realize that 
there is overwhelming support for this proposition in the Congress. 
Secretary Mineta and former Under Secretary Magaw previously announced 
their opposition to this proposal. When Secretary Mineta testified 
before this Committee on July 25 he informed you that he had asked me 
to take a fresh look at this issue, particularly in view of the 
overwhelming approval of the legislative proposal by the House of 
Representatives. I agreed to do so. I convened a task force of 
knowledgeable law enforcement and aviation officials from a number of 
federal agencies including the U.S. Secret Service, the Federal Bureau 
of Investigation, the Bureau of Alcohol, Tobacco and Firearms, and the 
Federal Aviation Administration, as well as representatives from the 
Federal Air Marshal service within TSA and several individuals under 
contract to federal agencies who are licensed commercial pilots.
    This task force recently presented its recommendations to me. I 
have to tell you that it is the recommendation of the task force that 
pilots not be armed with either lethal or less-than-lethal weapons. 
However, the task force advised that if pilots are armed, it should be 
through a carefully controlled, systematically planned test program and 
that the pilots receive personal firearms that can be calibrated to 
their individual use. Furthermore, to prevent pilots from having to 
openly transport firearms through secure airport areas and in off-site 
locations where pilots may overnight between flights, the task force 
recommended a lock-box system for carrying the weapons. The firearm 
would fit into a sleeve installed within the cockpit. Were the pilot to 
leave the flight deck for personal or flight related reasons, the pilot 
would be required to secure the firearm again in the lock-box. Thus, 
the firearm would only be available for use on the flight deck during 
flight operations, as intended.
    As I advised the Chairman and Senator McCain in my letter of 
September 5, 2002, I remain concerned that questions that deserve 
serious attention have not yet been adequately addressed in the bills 
that passed both the House and Senate. For example, the cost of the 
program, which will be very expensive, must be considered. Who will pay 
these costs? The federal government through discretionary 
appropriations, the airlines that employ the pilots, or the pilots that 
volunteer for the program? There are serious liability issues involved 
should an incident occur that gives rise to legal action. There are 
critical issues of international jurisdiction in addressing armed 
pilots carrying weapons on international flights into other countries 
where their laws do not provide for armed pilots either on the flight 
deck, inside the airport, or outside the airport's boundaries. Finally, 
and ultimately, are we confident that arming pilots yields potential 
gain for passenger security and safety that justifies the potential 
risk to passenger security and safety?
    Mr. Chairman, Senator McCain, and Members of the Committee, now 
that the initial bills have passed I urge you carefully to consider 
these and other unaddressed concerns before this proposal is considered 
in Conference. In addition, I implore you to give me the flexibility to 
plan this program with care, implement it efficiently, and provide 
needed support to make sure it improves our overall security posture. I 
hope that we can work together with the Conferees on this proposal. The 
President has shown his willingness to engage in this dialogue by 
including $20 million in his recent Fiscal Year 2003 Budget Amendment 
to plan for such a program should one be initiated.
    Mr. Chairman, earlier in my testimony I mentioned that while we are 
keeping our eye on the ball to meet the statutory deadlines for 
passenger screening and screening checked baggage for explosives, we 
have also made strides in the area of transportation security for other 
modes of transportation such as ports, rails and trucks. I would like 
briefly to discuss some of our initiatives. In order to ensure that no 
terrorist or other individual is successful in causing harm or 
significant disruption to the maritime and surface transportation 
systems, our Office of Maritime and Land Security will capitalize on 
existing programs involving the other modes of transportation and 
transportation infrastructure, as well as stakeholder relationships by 
identifying methods and measures already in place to implement 
standards. We are currently engaged in outreach with maritime and 
surface industry stakeholders. Discussions thus far have involved 
representatives from trucking, freight railroads, maritime shipping, 
intercity bus companies, and mass transit as well as representatives of 
state and local security to identify best practices and the need for 
security enhancements.
    In addition we are working to develop a comprehensive Risk-Based 
Management program with Transportation Security Conditions (TRANSECs) 
that is intermodal, interdependent and international in nature, is 
integrated with the Homeland Security Advisory system, and is 
responsive to the unique needs of each transportation mode. We will 
establish a program of prevention, protection, and emergency 
preparedness for non-aviation modes that includes the capacity to 
respond to threats and to events. This will provide for the restoration 
of transportation services and for the restoration of public confidence 
in our transportation system.
    Our Office of Maritime and Land Security will also oversee a 
coordinated program of vulnerability assessments by identifying 
critical infrastructure, conducting assessments according to 
established standards, and overseeing security enhancements. As a first 
step in this effort, TSA in conjunction with the Coast Guard and MARAD 
is currently overseeing port security assessments and enhancements by 
virtue of grants that we awarded in June of this year with funds 
provided to TSA by the Department of Defense and Emergency Supplemental 
Appropriations for Recovery from and Response to Terrorist Attacks on 
the United States Act, 2002, enacted last December.
    As part of our initiative to bring common sense to aviation 
security, the Department of Transportation has asked that this 
Committee consider a number of technical corrections and improvements 
to ATSA. I would like to underscore two of those improvements. The 
first concerns the deployment of Federal law enforcement officers at 
every passenger security-screening checkpoint by November 19 of this 
year. According to ATSA, by November 19 we must have ``a sufficient 
number of Federal screeners . . . and Federal law enforcement officers 
to conduct the screening of all passengers and property under section 
44901'' of Title 49, United States Code. This requirement would seem to 
preclude TSA from continuing to rely on the resources of state and 
local law enforcement officers at certain airports, as we have been 
doing since February 17 of this year when TSA assumed civil aviation 
security functions from the FAA. This does not make common sense. In 
some of the smaller airports in Categories III and IV, we may not have 
a need for full-time Federal law enforcement officers. We may be able 
to handle the security functions at these smaller airports under 
reimbursable agreements with the state and local law enforcement 
agencies. At other airports, especially where state and local law 
enforcement officers can enforce federal laws on aviation security, or 
where there are equivalent state and local laws, TSA would like the 
option of continuing to reimburse state and local law enforcement 
officers for their services. Accordingly, our legislative proposal will 
simply remove the requirement that the law enforcement officers be 
federal employees in all cases.
    The second major area where we are seeking legislative assistance 
from this Committee concerns the aviation security service fees 
established by Section 118 of ATSA. TSA has requested Congress to 
legislatively establish this fee at a flat rate of $750 million per 
year, which TSA will apportion among air carriers based on market share 
or any other appropriate measure. TSA has also requested the authority 
to adjust the Air Carrier Fee starting fiscal year 2005 to reflect the 
most current economic conditions, inflation, or other reasonable 
factors. I ask for the support of this Committee in approving this 
important initiative. Our technical corrections package includes 
several other important proposals to fine-tune this important 
legislation. I thank the Committee in advance for your early 
consideration of these measures.
    Mr. Chairman, Senator McCain, and Members of the Committee. We have 
accomplished much in the short time of TSA's existence. There remains 
much to do. Secretary Mineta, my team and I are fully dedicated to this 
important task. I appreciate the support I have received from this 
Committee and I look forward to continuing to work with you to see this 
effort through. I will be pleased to answer your questions.
                                 ______
                                 
         Transportation Security Administration Accomplishments
    January 28

 <bullet>   Under Secretary of Transportation for Security sworn in. 
        TSA has 13 permanent employees.
    February 17
 <bullet>   Assume the responsibility for civil aviation security 
        functions, including passenger screening that had previously 
        been conducted by air carriers. TSA oversees private security 
        companies.

 <bullet>   Each of the nation's airports has a federal presence on 
        site, coordinating with local law enforcement and airport 
        security personnel, and overseeing all aspects of security 
        enforcement throughout the nation's 429 airports.
    March 13
 <bullet>   Appoint the first set of federal security directors to 
        Atlanta, Baltimore-Washington, Chicago O'Hare, Denver, Mobile, 
        Phoenix, Ronald Reagan Washington National, and San Diego 
        airports.
    March 25

 <bullet>   Develop a new training curriculum for passenger screener 
        that includes more than 44 hours of classroom training and 60 
        hours of on-the-job training.

 <bullet>   300 passenger screener-trainer candidates begin training at 
        Aeronautical Center in Oklahoma City. The TSA will train about 
        300 screener-trainers a week at the center.

    April 27

 <bullet>   Return Ronald Reagan Washington National to its fully 
        operational, pre-9/11 status.
    April 30

 <bullet>   Roll-out new federal passenger screeners at BWI; first 
        airport of many.
    May 31

 <bullet>   National Guard troops, who were deployed at airports 
        checkpoints since September, end their tour of duty. TSA 
        provides funding to hire local law enforcement officers to 
        replace guard members.
    June 28

 <bullet>   TSA deploys federal screeners to Mobile and Louisville--the 
        first after BWI.
    August 6

 <bullet>   TSA has thousands of federal air marshals on the job in the 
        air.
    September 10

 <bullet>   TSA hires more than 26,600 of the 30,000 federal passenger 
        screeners mandated by the November 19 deadline--and by 
        September 13 TSA expects to name all but a handful of the 
        federal security directors for the nation's commercial 
        airports.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    The Chairman. Very good, Admiral. That is a breath of fresh 
air.
    Getting right to the point of guns in the cockpit, of 
course, they overwhelmingly approved that approach last 
Thursday. With respect to the approach of the administration, 
because I have got hope that the administration has got a vote, 
I have yet to be able to persuade that the entire thrust of the 
plan for the cockpit doors staying closed in flight is to 
change over from the pilot being responsible for law and order 
to having a higher responsibility, namely, making certain that 
that plane is not used as a weapon of mass destruction, and 
with that in mind--with that in mind, we do not have to worry 
about the cost and all that kind of thing. It is whether or not 
you have got the right policy.
    And incidentally, you do not have to have a pilot program 
to determine right policy. We have got a 30-year pilot program 
of success in El Al Airlines, never a hijacking. I know I can 
be politically incorrect in profiling and everything else like 
that, but we want it known, and almost a sign. Rather than 
``Welcome to Reagan National,'' just put a sign in every one of 
these major airports, try to hijack and go to jail, and put it 
in all the languages necessary so they understand it, because 
that is what they know. That is why they shoot at the ticket 
counter of El Al. They do not try to hijack the plane, because 
they know it is not going to work.
    That is what the pilots in America have got to understand. 
There is a greater responsibility. Yes, I would like to have a 
gun if I am going to have to win the fight on the plane, but 
you have got to win a bigger fight, specifically not have to 
have all of these F-16's flying around above you ready to shoot 
you down.
    You talk about fair. You started immediately with the fair. 
With respect to Reagan National, you do not have to worry about 
taking off from Reagan National and running into the White 
House. I am a good witness, because I travel every week on 
those planes, and they say for 30 minutes before and 30 minutes 
after take-off and before landing you cannot get out of your 
seat. That is fair, and they wonder what is going on and 
everything else. You do not have to worry about a commercial 
airliner going into a nuclear power plant, all with one rule 
that is tried and true. Never open that cockpit door in flight.
    So we can reconcile that in conference. Let them have the 
pistols and everything else until they get that secure cockpit 
door, but you do not want to have a responsibility for opening 
that door if you have got the pistol, and somebody is crying 
outside, namely, open the door, he is choking me or killing me, 
or whatever it is. You do not have that responsibility. You 
have got the responsibility to go to the ground, and law 
enforcement meets them.
    Having said that, let us get really to the needs that you 
have as the administrator. You say, on reduced funding, is it 
the case that you have got $4.8 billion and you are now looking 
at $546 million more, is that right? I want to make sure that 
this Committee authorizes, and we follow through, and you get 
the money, and particularly, like you say, if we are going to 
have a continuing resolution, we take care of you in that first 
quarter, because it is no use to have a good man take over this 
thing and then not support you, so my idea is to support you in 
every way possible. What do you need?
    Admiral Loy. Yes, sir. The request for 4.8 that was 
originally part of the President's request in 2003, plus the 
546 in the budget amendment that was sent up just last week, is 
the required amount for us to deal with what we need to deal 
with, Mr. Chairman.
    The Chairman. All right, and what with respect to the 
exceptions, what recommendations do you have for the Committee? 
You got into this with Senator Ensign, which was a good thing, 
so we would be realistic. I mean, we cannot get the impossible, 
but let us get to the point there. What approach do you suggest 
that we make, just exceptions as need be, ad hoc kinds of 
things?
    Admiral Loy. Yes, sir. I think my views are very, very 
consistent with what I have heard from many of the Members this 
morning. I do not think we should in any kind of blanket manner 
eliminate the current deadline. The current deadline offers us 
the focus you intended, as I heard Senator Rockefeller mention 
when he was in the conference, but there are very legitimate--I 
have gone to many of these airports over the course of the last 
5 weeks. I visited West Coast airports, those that Senator 
Boxer just mentioned, including SEA-TAC up in Seattle.
    I have gone to New York. I have gone to Logan. I am 
enormously appreciative of what Logan is doing in terms of 
taking a lead and saying yeah, we can meet these deadlines, we 
are a category X airport, and we are going to take $140 million 
that has been offered us by the Massachusetts Port Authority 
and step out and make it happen.
    But on the other hand, I find in a number of these airports 
something considerably less than 10 percent of the total, a 
legitimate set of engineering challenges that I do not believe 
it would be right for us to force interim solutions that would 
dominate their lobbies, literally expel the passengers for the 
sake of ETD equipment. They would not have to be forced into 
the lobbies as a means of meeting the deadline.
    It does go to customer service and the efficiency of 
security, and I do not want those lines to be out in the 
parking lot and down the street, so I am of the mind that we 
hold onto the deadline, that we shape the legislation in such a 
fashion that it offers the Under Secretary or the Secretary of 
Transportation, as you deem appropriate, the authority to grant 
extensions to those very few numbers of airports where these 
circumstances exist, and that we do so attendant to two things, 
one, an absolute end game with each and every one of those 
airports that we have designed by, say, 1 December, and 
secondly that there is an interim mitigation strategy so that 
we do not put concentric circles around those airports and 
offer them as paths of least resistance to any terrorists or 
anyone else.
    I think that notion of holding onto the deadline for the 90 
percent that can get there, identifying specifically those 
airports that cannot, an individual negotiation with myself and 
my staff with each and every one of those, key to an extension 
of that deadline for them individually down the road.
    The Chairman. If the cockpit door is to remain secure, the 
flight attendants really are the first line of defense, so to 
speak. What training schedules or needs do you have from the 
Committee to have them properly trained?
    Admiral Loy. As the legislation calls for, Mr. Chairman, 
the airlines have been asked with providing training. We have 
designed a training curriculum and offered it to each of the 
airlines so that there is a standard set of training elements 
going on across the country. Much of that training has already 
been conducted, so as it relates to more needs from the 
Committee about that training, I think we have what we need, 
sir.
    The Chairman. Senator McCain.
    Senator McCain. To follow up Senator Hollings' questioning, 
how many airports are going to be affected by this perhaps 
negotiated extension on the explosive detection system 
installation and deployment?
    Admiral Loy. Senator McCain, we have pretty good assessment 
information on about 21 or 2 at the moment, and my guess is 
that could climb to as many as 30 or 35, but certainly less 
than 10 percent of our total.
    Senator McCain. But when you look at the size of the 
airports, it is a significant number of passengers that pass 
through those.
    Admiral Loy. Enplanement numbers are absolutely 
significant, yes, sir. It is not 10 percent of the passenger 
load, you are absolutely right.
    Senator McCain. The DOTIG reported that Boeing was to have 
completed 266 site assessments by the end of August. How many 
site assessments have been completed?
    Admiral Loy. I do not have that number----
    Senator McCain. Roughly.
    Admiral Loy.--but I can get it for you, sir. Boeing----
    Senator McCain. It is not many, is it?
    Admiral Loy. I am sorry.
    Senator McCain. It is not many, is it?
    Admiral Loy. Boeing is behind with respect to those 
assessments.
    Senator McCain. Then look to somebody else to do those 
assessments. Boeing has had their chance.
    Admiral Loy. I will do that, sir.
    Senator McCain. How will those delays affect the schedule 
to meet the screening checked baggage deadline? If you do not 
have an assessment it will be very hard to meet the deadline, 
it would seem to me.
    Admiral Loy. We are making significant progress. This past 
weekend, Senator McCain, a team of TSA and Boeing executives 
got together with their engineers and approved 50 of those 
assessments just on Saturday and Sunday, and they have probably 
another 25 or 30 over the course of the first 2 days this week, 
so the process of having reached the point of final assessment 
judgments is right with us. It goes very much, sir, to the 
nature of the chart that I showed with the steep incline 
towards the end of the period here, and that is by design, not 
by accident.
    Senator McCain. TSA has cited 1,100 EDS and 6,000 ETD 
machines to be procured in order to meet the deadline. How many 
machines remain to be ordered?
    Admiral Loy. We are at about 1,025 on the EDS, Senator 
McCain, and so we leave about 75. We think we will probably 
push about 50 of those 75 into the first quarter of fiscal 
2003, but the wherewithal to do so is contingent on the budget 
amendment being included in the final appropriation.
    Senator McCain. What about ETD?
    Admiral Loy. There is no problem with ETD, sir. I do not 
know precisely what the order number is. I can get that for you 
for the record, but we have no problems in either a supply 
chain or the availability of ETD.
    Senator McCain. The airline people have been to see me on 
several occasions. As you know, the airlines are in great 
financial difficulty. It is certainly common knowledge. They 
are concerned about assuming the increasing amount of costs to 
pay for many of these security requirements. What is your view 
of that issue?
    Admiral Loy. Senator, I believe there is a burden on all of 
the stakeholders to be contributory to the solution that we 
have at the other end of the day. The same thing exists in our 
ports. The same thing exists in many of our terrestrial modes 
of transportation as well.
    I think most of the burden, though, with respect to the 
ETD/EDS installation, as well as the checkpoint 
reconfiguration, is being borne by TSA, the Federal Government, 
and the airports as opposed to the airline.
    Senator McCain. The airlines claim that they are assuming 
significant costs. Do you agree with that?
    Admiral Loy. The assumption of costs is, of course, as you 
know, an issue, somewhere between the $750 million figure that 
was offered forward as the original airline contribution to 
security in the past, which was to be continued. There are 
those who would revise that estimate from the airline community 
downward considerably, and I think we need to be very conscious 
and careful of making certain that all of the stakeholders at 
the table meet their obligations with respect to partial 
funding.
    Senator McCain. How many airports now are fully 
federalized, three?
    Admiral Loy. We are in about 100, sir.
    Senator McCain. Fully federalized employees.
    Admiral Loy. Fully federalized, I think there is only a 
handful.
    Senator McCain. One of them is Baltimore, BWI?
    Admiral Loy. Only at the checkpoints for passenger 
screening.
    Senator McCain. And you have information that would lead 
one to assume or conclude that this has been successful, 
federalizing these employees?
    Admiral Loy. We have had considerable evidence that that is 
the case, Senator McCain.
    Senator McCain. In what respect?
    Admiral Loy. Well, first of all, one of the advantages----
    Senator McCain. The reason I ask this question, as you 
know, there was a matter of great contention at the time we 
passed this legislation, and I would be interested in your 
preliminary assessment.
    Admiral Loy. Yes, sir. We owe the Congress what I would 
call the metrics and the reports therefrom on the basis of a 
federalized system versus a third party screener basic system 
of the past, and we have as a result of being a brand-new 
organization, the opportunity to inculcate performance based 
management or leadership at the threshold level in this 
organization.
    We have done that, so we are already beginning to get those 
kinds of metrics from BWI, from Mobile, from Louisville, from 
those other airports where we got into early, and the evidence 
is pretty overwhelming that if you spend 100 hours training a 
screener to do the job well, including the attitudinal end of 
what they do, as opposed to the 5 to 6 hours that was the 
average in the past, you will get an increasingly professional 
product on the job.
    Senator McCain. So you believe that federalization of the 
employees was a good thing to do?
    Admiral Loy. I do so at this point, yes, sir.
    Now, we still, as you know, have five experiments, 
including Kansas City, Senator Brownback, and San Francisco and 
Rochester to below Mississippi. There is one other where we 
will continue to press third party screening as an option, 
because, as you recall, the law also offers, 2 years down the 
road, an opportunity for airport directors to reconsider the 
notion of federalized screeners.
    Senator McCain. I thank you. Thank you, Mr. Chairman. Thank 
you, Admiral.
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman. Thank you, Admiral 
Loy for a very thoughtful opening presentation. Let me begin by 
asking you about the consequences of poor performance. I have 
been very troubled by the fact that we have gotten these 
reports now for months that airports, 30 to 40 percent of the 
time, weapons, for example, get through the checkpoints.
    Just last weekend, over Labor Day, numerous news 
organizations all across the country were going through these 
exercises where they have got knives and the like through. Can 
you tell me what is being done to deal with the consequences of 
poor performance, and spell out particularly how there is going 
to be new accountability, so that when there is poor 
performance there are changes made?
    Admiral Loy. Yes, sir. The anecdotes you describe, of 
course, make my stomach churn as well and keep me up at nights. 
The reality is, on the other hand, there have been numerous 
occasions where news media have made an effort, illegal by the 
way, I might add, to attempt to introduce weapons or knives or 
whatever it might be into the system where they have been 
intercepted and confiscated as a result, and obviously we do 
not often see very much of that in the press. What I can tell 
you is that, for example, we had an unfortunate incident 2 
weeks ago where a young woman was carrying a .357 Magnum, came 
out of Atlanta into Philadelphia, going on to a small town in 
Eastern Maryland. The screening process missed that weapon in 
Atlanta on the way out, but got it in Philadelphia as she 
attempted to reboard from the public area in the Philadelphia 
Airport.
    What had occurred, interestingly enough, in Atlanta is that 
the screener actually saw something that--I forget if it was a 
he or she--that they did not like on the screen, called her 
supervisor over to validate it, the supervisor said, it does 
not look quite right, I am going to hand-check this bag, hand-
checked the bag and the weapon got through. That supervisor is 
no longer working, and the accountability end for the screener 
was reinforced as her having done exactly the right thing, and 
her supervisor having been found to have been lax.
    So the first order of business is to provide some kind of 
remedial training opportunity that can gain a focus on what 
broke down, build the skill set, and as necessary, not only 
deal with that individual who had a problem, but build that 
back into the training curriculum for all.
    Senator Wyden. How many airports are under extra 
monitoring? I was under the impression that there was going to 
be an effort to really zero in on the airports where there were 
problems. I want to know if that is correct this morning, and 
particularly how many airports would be subject to this extra 
monitoring to make sure that there is follow-up so the holes 
get plugged?
    Admiral Loy. Senator Wyden, I will have to get back to you 
with the number, but what we have----
    Senator Wyden. Is it a significant number that are getting 
extra monitoring?
    Admiral Loy. We pay very close attention to the press 
report of several weeks and months ago, and the inspection 
staff that is, in fact, just forming, and coming of age, if you 
will, like every other element of the TSA organization has been 
about the business, in conjunction, I might add, with the 
Inspector General of the Department who has been cooperating 
extremely well to help us design the right kind of review and 
oversight monitoring of things that needed to be going on.
    Senator Wyden. Let me ask you a money question. The 
Inspector General reported that the screening companies jacked 
up their rates when your agency started paying the bills. Now, 
maybe that is all right if we are actually getting better 
performance, but given the fact that we are having this budget 
debate, it seems to me critically important that the agency is 
monitoring the screening contractors to see where the money is 
going. Do you all have a program underway to watch dog the 
screening companies?
    Admiral Loy. Absolutely we do, sir. Part of the IG's 
initial review of those third party contracts included a 
recommendation that we reach out to a third party accountant, 
if you will, to aid us in the process of oversight, and so we 
have reached a DCMA and DCAA and engaged them so as to help us 
definitize those contracts and watch very, very carefully the 
data flow that is associated with them, so we did pay a little 
more, as you know, at the beginning, because it was important 
for us to incentivize those contractors to stay on the job 
until the federalization process could take place.
    The other reality there is, when the federalization process 
takes place, aside from the five pilots that we will continue 
to run with third party screeners, we will have that problem 
behind us.
    Senator Wyden. What were the most important changes that 
you put in place when you took over? I mean, it was clear there 
was a reason that you were installed, and I would like to know 
what changed when you got there. What were the specific 
policies that were altered?
    Admiral Loy. Well, sir, first, the Secretary made it very 
clear to me on the occasion of asking me to take the job what 
he was expecting out of the job, so the first order of business 
I think was a new way to do business, if you want to refer to 
it in that fashion, new in the sense of public-private 
relationships, new in the sense of focusing on the customer 
service piece equally with respect to world class as we were 
focusing on world class security from the very beginning.
    I come from an organization, Senator Wyden, as you know, 
that for the last 5, 6, 8, 10 years has made a huge difference 
in its performance based on public-private partnerships. If you 
go ask Tom Aligretti, the president of the American Waterways 
Operators, what is the difference between the AWO over the past 
and its Coast Guard relationship over the last 5 to 7 years, I 
believe he would tell you that we have found a way to get 
together on policy generation issues and performance issues in 
such a fashion that we hold deeply to our regulatory 
responsibilities, we the Coast Guard--it is hard for me not to 
say that--and they the impacted industry gain performance as a 
result.
    I want to bring that to this organization as well, and I 
have traveled extensively. I have gone to 15 or 20 airports, I 
have dealt with the airport directors, the airline executives. 
I have met several times with Carol Hallett at ATA, with Chip 
Barclay over at AAAE, I have met with the pilots associations, 
I have met with all the trade associations, and I have met with 
all of the senior staff of the respective Committees here on 
the Hill, and on those occasions where the recess allowed, with 
Members and Senators as well, so my notion there is that we 
have to engage in a partnership to get this job done together.
    The second thing I have brought or tried to bring to the 
table is an emphasis on strategic planning. I can tell you, 
sir, that for the course of the first 7 or 8 months of this 
organization they have been wrapped around the axle of the in-
box. The daily terror has been the in-box, and the ability to 
sit back and say to ourselves, what do we want this 
organization to be for America, what did the Congress really 
have in mind that they wanted this organization to do for 
America, and what should we be doing 5 years from now when 
these deadlines are behind us and we, in fact, have in place a 
new security paradigm for the country, not only in airports, by 
the way, but for the rest of the transportation system?
    So I have tried to focus on what I always have called the 
precious few, and the precious few for the moment are the 1119, 
1231, the CAPPS-2 program, which will enable us to do 
infinitely better as it relates to identifying selectees at 
airports, including a frequent or registered traveler program, 
as we are calling it at the moment, and then, of course, these 
outreach trips have offered me a chance to learn about this new 
industry.
    When I walked aboard, I was a sailor, and I used to tell 
aviation jokes, and I am not allowed to do that any more, 
because first of all Senator McCain would be all over me, but 
beyond that, the notion of learning this new industry and all 
the inside subtle relationships about airlines and trade 
associations and airports, and how they have dealt with the FAA 
in the past.
    So that is an off-handed approach to your question, sir.
    Senator Wyden. Thank you, Mr. Chairman.
    The Chairman. Senator Ensign.
    Senator Ensign. Thank you, Mr. Chairman. Just to get on the 
record what we had in our meeting last week in my office, you 
had talked about not making targets of these 20 to 30 airports, 
whatever it turns out to be, that physically cannot meet the 
deadline. Could you describe some of the measures--you used 
McCarran as an example. Describe some of the things to make 
sure that we meet your two goals. One is that we screen all the 
bags, and two is that we do not hurt customer service--could 
you tell me the type of resources that are going to be 
necessary, for example at an airport in Las Vegas?
    Admiral Loy. Yes, sir. I think what I have referred to as a 
mitigation strategy associated with gaining the functional 
accomplishment, but waiting for the final solution in terms of 
what mostly likely will be an in-line media solution for those 
airports. There is a menu of things we will surge to the 
respective airports where appropriate. It might be additional 
ETD. It may be hand checks. It may be canine patrols. It may be 
positive passenger bag match.
    There is that inventory of tools of the trade that we will 
just have to surge in greater quantities to not only meet the 
goal of baggage inspection, but also to make certain that doing 
that did not end up with--you know, it is that fine balance 
between customer service and getting the job done, and we have 
to get the job done, and also balance the customer service 
accordingly, so we would surge those things to the airports in 
question in such fashion as to do that.
    Senator Ensign. Obviously, Southern Nevada is very tourism-
dependent. That airport is critical to the economy of our 
State, as it is to the economies all across our country. Do you 
have the adequate resources to put those extra resources in 
places like the Los Vegas Airport?
    Admiral Loy. With the budget that we have offered forward 
as an amendment to the fiscal 2003 request, we think we will be 
able to do that. I must also say, however, that all of the 
assessments are not finished, and I would be remiss if I ever 
gave this Committee or any other Committee an absolute 
guarantee until we have all of the cards face up on the table, 
if you will, but we do believe that we will, as necessary, 
reshape the inventory of the 1100 EDS machines that Senator 
McCain asked me about, and the 6000 ETD to make it right across 
the country.
    Senator Ensign. Lastly, your commitment was that we were 
not going to have the lines that have been, at least the 
studies have indicated, preliminary studies have indicated at 
McCarran, that your goal is not that 10-minute rule you talked 
about with the screening of the passengers, that that is, in 
effect, what your goal is, and you said that you would 
absolutely make sure that that is met, for instance, at 
McCarran Airport.
    Admiral Loy. Yes, sir. That remains so. That is the 
direction I was given by my boss.
    Senator Ensign. Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Hutchison.
    Senator Hutchison. Thank you, Mr. Chairman.
    Admiral Loy, do you support the trusted traveler program?
    Admiral Loy. I do, indeed. I am disappointed that one of 
the elements in the language of the supplemental sort of pulled 
the rug out from under the funding of the transportation 
workers' identity card, because I had always imagined that, and 
I believe the organization had always imagined that to be sort 
of a foundation block from which we could grow a registered 
traveler program. I have sort of discounted the use of the 
trusted traveler program because the opposite of that suggests 
we do not trust all of the other players, so I have visited a 
plant down in Corbin, Kentucky, where INS is currently having 
its new sort of family of green cards made.
    There are laser cards and chip cards and all kinds of 
better ways for us doing business. I absolutely endorse the 
notion of a trusted traveler program at the other end of the 
day, and I think it has to be hooked up with this second 
generation of the computer-assisted passenger screening system 
that we currently have in place. Unfortunately, I probably 
should go to a closed hearing to talk that over, and I am happy 
to do that for the chairman and anyone else who would like to 
do it, but the connection is very real.
    Yes, ma'am.
    Senator Hutchison. Was the supplemental the $5 billion that 
was not declared as an emergency? What was in the supplemental?
    Admiral Loy. I was directed not to spend another nickel, 
basically, on the transportation worker identification card. I 
think that primarily came from Chairman Rogers over in the 
House Appropriations Committee, and his notion was very 
straightforward. He understood that we were lining our effort 
up with the new DOD military identification card issuing 
process, and he wanted to make sure that he had a chance to 
speak with me about the strengths of that program as opposed to 
the strengths of others, the difference between lasers and chip 
cards, et cetera, so that what we do is produce for this 
purpose the functionality that ought to be there at the other 
end of the day, so I have had a great conversation with 
Chairman Rogers and I look forward to continuing to work with 
him.
    Senator Hutchison. I think it is essential that we move 
forward. One of the disagreements I had with your predecessor 
was this known traveler concept. I think it can expedite the 
whole operation of this security effort and segue into cargo. I 
think we need a very firm, known shipper program. I think today 
the qualifications to be a known shipper are quite lax, and I 
would like to ask you what are the qualifications, and what are 
you doing about them?
    Admiral Loy. I agree, Senator Hutchison, both you and 
Senator Snowe have introduced legislation associated with cargo 
as an issue, and it is absolutely an imperative that we spend 
focused attention on getting a better approach to cargo. We 
have strengthened the known shipper program from what it used 
to be, but I do believe that it is still simply not enough.
    I think your notions of technological monitoring and 
advances, your notions in your bill of supply chain audits make 
great sense in terms of ways in which we can bring strength to 
a cargo focus in addition to the passenger focus that has been, 
of course, by decree in ATSA, the 100-percent mandate with the 
date certain, that sure prioritized things for TSA in terms of 
what it should be putting its emphasis on at the beginning, but 
we must reach to general aviation aircraft better, we must 
reach to cargo better, and frankly I look forward to working 
with you, Senator Hutchison, on the language in your bill.
    Senator Hutchison. Are you taking steps under the trade 
promotion bill to screen and evaluate cargo, whether it is 
coming into or out of the United States?
    Admiral Loy. I need to get back to you with a better answer 
than I would be able to give you today on that.
    Senator Hutchison. There is a requirement on that bill 
which would be helpful. It does not include the interstate 
commerce which, of course, is clearly important as well. 22 
percent of cargo is on passenger planes and, as I said earlier, 
I want to continue that and build on it. I want to make sure 
the airlines have every opportunity for revenue possible.
    Admiral Loy. And Oklahoma City, as we know, was a domestic 
act of terrorism.
    The Chairman. If the Senator would yield just a minute, our 
clock is not working. We are already half-way through a roll 
call that is going on right now. Excuse me for interrupting.
    Senator Hutchison. Mr. Chairman, if I could just finish, 
then, I would just like to ask Admiral Loy to look at the trade 
promotion bill that was signed. I would like a report in 
writing, or an answer in writing on that. Let me just ask you 
if you support the basic concept in my bill, which involves the 
chain of custody being established, the system for certifying 
known shippers with an encrypted identifier that cannot be 
tampered with, and inspections as things go on board.
    Admiral Loy. Absolutely. I spent the last 8 months in 
uniform designing maritime security plan for America, and when 
we focused on containers, for example, that is precisely those 
elements, the chain of custody associated with products or 
cargo inside a container, if you will, from its point of being 
packed and sealed.
    I used the phrase, in transit transparency, such that 
through the course of the time it left that manufacturing plant 
wherever it was, and ended up wherever it was going, we know 
whether or not it had been violated, whether that cargo 
container had been opened or not. That was a goal that 
absolutely needed to be there, and I sense that is the same 
thing you are describing in your bill.
    Senator Hutchison. Absolutely. Well, Mr. Chairman, I thank 
you. I think that our comprehensive bill addressing all of 
these issues must include cargo, or we will have one gaping 
hole in our system which we do not need. I think you are doing 
a credible job.
    The Chairman. Very good. We are going to have to, I guess, 
suspend for a few minutes, otherwise--Senator Snowe, she did 
not even get an opening statement. Do you want to ask some 
questions, then we will suspend for the roll call? Brownback is 
next in order, and then Allen. Excuse me. Allen--excuse me. 
George, you go ahead. I am sorry.
    Senator Allen. Thank you, Senator Snowe. Very quickly, 
Admiral Loy, I have been increasingly concerned. We have been 
patient on Reagan National Airport. A year now from the tragic 
events, general aviation is still shut down there. Back in May 
Secretary Mineta said it would be open. I even brought it up 
with Ms. Blakey last week, the new FAA administrator.
    I would like to ask you, Admiral Loy, is there a plan, 
currently a plan to reopen Reagan National Airport to general 
aviation, and if not, what is the timetable for developing such 
a plan?
    Admiral Loy. Senator Allen, this is where we are. There is 
no change since we last reported in July to you from this 
particular table, when both Secretary Mineta and Secretary 
Jackson and I testified then. There is a regulation that has 
been developed and is on hand, but the reality of what happened 
in terms of threat assessments in the months of late May and 
through the course of June just sort of unfortunately 
interrupted whatever might have been a plan of intent, and I 
understand what you say when you say plan, and that is what I 
am trying to react to and respond to.
    I think it would be a very good thing, sir, if we had an 
opportunity to brief you privately with respect to the threat 
analysis on which we are basing our actions and, of course, it 
is not just TSA, but many other Federal agencies that are 
involved.
    With your permission, Mr. Chairman, I would like to try to 
do that.
    Senator Allen. Well, I look forward to having that private 
meeting. I can understand why you cannot divulge, I suppose, 
some of these matters, but I would like to see a plan developed 
that meets all the security needs, and I think the general 
aviation community would be willing to go through those 
elaborate, gold-plated, hyper security requirements for general 
aviation. Reagan National has put in specific requirements for 
commercial aviation, for understandable reasons. It was 
accepted in the phased-in reopening for many, many months for 
commercial, and that same sort of an attitude and an approach 
probably needs to be taken for general aviation.
    Admiral Loy. Yes, sir. You have been an eloquent spokesman 
on this, as has Delegate Norton, and I would just like to have 
the opportunity to brief you in private, sir.
    Senator Allen. Thank you. I know we are short on time, Mr. 
Chairman.
    The Chairman. Senator Snowe.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman, for giving me this 
opportunity, and very quickly, Admiral Loy, I want to welcome 
you, and I want to commend you for the can-do spirit you are 
bringing to this position, which is obviously something that is 
so critical to this country, and I also thank you for really 
expressing the sentiment of moving heaven and earth to meet all 
the deadlines. I think that is important.
    I do not think it is an option to fall short of our targets 
if it is at all possible. I know there will be some extenuating 
circumstances, but above and beyond that I think we cannot 
express a vacillating message, and you are certainly not in 
this instance, and we certainly appreciate that.
    I do believe we have created a strong foundation for 
enhancements to the status quo from where we were a year ago, 
and tragically what occurred a year ago tomorrow.
    Let me ask you several questions. I was in Portland, Maine, 
yesterday, and I visited with airport security officials, the 
Director of Federal Security from TSA, Bob Dyer, and the 
Jetport manager and I am pleased to announce they are 
federalizing their security workforce. They are rolling it out 
today, and that really is commendable, because Maine's two 
largest airports are two of 82 out of the 429 that have met the 
deadline of November 19, 2 months ahead of time for doing so, 
so I am very pleased with that record, and I am also impressed 
with the relationship that exists between the Director of 
Security in the airports, and I just want to say that here.
    I am very impressed with the cooperative team work attitude 
that was displayed yesterday in their efforts to resolve all of 
the challenges that obviously are out there, and I just want to 
give that report to you.
    You mentioned the Washington Post grading by experts here. 
Is there any truth to the statement that airport security has 
not been substantially changed, because as one person said, 
airlines have exerted a tremendous amount of pressure not to 
implement security. Is that true?
    Admiral Loy. My instincts as I have gone around, this is a 
very competitive industry, there is no doubt about that, but I 
have visited up to 20 airports at this point, and every airline 
station manager, every airport director has been willing to 
come to the table and meet us more than halfway as it related 
to designing the game plan that would be appropriate for that 
airport, so I put very little faith in that particular report. 
I would much rather read Newsweek this week, which is giving us 
an A instead of whatever you found in the Post this morning.
    Senator Snowe. But it is not a sentiment you have seen?
    Admiral Loy. No, ma'am. Carol Hallett, representing all the 
major airlines, the trade associations representing the charter 
services, the smaller airlines, I have touched base with each 
and every one of them. I have given them my card which has my 
e-mail and phone number, told them to call me directly. We have 
made excellent progress with the relationships that I think 
will allow us to go forward.
    Now, that is not to mask very serious challenges and very 
expensive challenges we all have in front of us, and as the 
chairman mentioned before, the industry is on very tight 
margins right now as it relates to survival, really, and our 
goal is to bolster the robustness of our aviation industry 
across the board, airports, airlines and, of course, most 
importantly, the security of the traveling public.
    Senator Snowe. I also want to reinforce what Senator 
Hutchison mentioned about air cargo.
    Admiral Loy. Yes, ma'am.
    Senator Snowe. Because 22 percent of all cargo is shipped 
on passenger planes, it is a gaping loophole. I hope we can 
move quickly to develop a plan.
    Admiral Loy. Part of our focus in the budget amendment is 
an interestingly small amount, but just so we can focus on the 
postal cargo, which is an enormous revenue loss to the airlines 
at the moment, we believe we have really sorted this pretty 
well, we think, and we believe the right answer may very well 
be canines, of all things, and so we have asked for a specific 
amount of money to enhance the canine program that would allow 
us to deal with the Postal Service straightforwardly and 
reintroduce a postal cargo back into the belly of those 
aircraft, because that is a huge good step forward for the 
airlines.
    Senator Snowe. Thank you very much, Admiral. Thank you, Mr. 
Chairman.
    The Chairman. Thank you. The Committee will be at ease. 
Admiral, if you do not mind sticking with us, Senator Brownback 
and some others are coming back after the roll call.
    [Recess.]
    The Chairman. The Committee will come to order. Senator 
Brownback.
    Senator Brownback. Thank you very much, Mr. Chairman. 
Admiral Loy, thank you for staying here through all of this. I 
want to ask a couple of questions that people regularly ask me, 
so they may not make a whole lot of sense, and they may not be 
great illuminators, but it is just questions that people ask me 
often.
    I have had a gentleman say to me, and this is a pretty 
typical example, say look, I see them examining a 72-year-old 
grandmotherly looking person, doing a full search on her. At 
the same time, I saw them let through in the same flight four 
young men that were traveling together, and were obviously 
traveling together, and they were inspecting and going through 
a full search for this one lady who I really doubted was going 
to try to do something on this plane, and yet let through these 
four gentlemen who were traveling together and were younger. If 
you were looking and trying to think through the situation you 
would say that is a much higher security risk than the 72-year-
old grandmotherly looking lady is.
    How are you dealing with this? Do you think you are 
adequately getting at the people who are actually the high risk 
individuals getting on planes?
    Admiral Loy. Senator Brownback, I am very concerned about 
that as an element of the so-called hassle factor that just, we 
have to do better. The answer is in the replacement of what is 
currently the computer-assisted passenger screening system that 
selects selectees, and there is a rule-based system whereby if 
you violate the rule, and unfortunately many of the rules have 
been compromised in terms of public knowledge, you get labeled 
a selectee, whether you are that blue-haired grandma or the 
infant in the stroller, and the challenge for us is to expedite 
and accelerate the replacement of CAPPS-1 with CAPPS-2. It is 
my single most important R&D investment that we have to make.
    Secretary Jackson, Secretary Mineta and I have been working 
very hard on this already to lay the groundwork for learning 
the things we need to learn to accelerate the replacement of 
CAPPS-1. When that newer system is there, it will have two 
features that I can talk about publicly, and again, this is one 
of those things, Mr. Chairman, that only to some point can I 
talk about them publicly, and I would be delighted, Senator 
Brownback to do something privately for you, but the two things 
are this.
    We have to have an absolute firm feel for the identity of 
the individual we are talking about, whether it is the 
grandmother or whether it is one of the foursome that is 
walking toward the checkpoint. That means that we have to go 
from sort of a name-only identity system to one that meets what 
I will call law enforcement specifications.
    In other words, your ticket to come back to Washington 
probably said Brownback, comma, initial, and that was 
sufficient to have you buy an airplane ticket, and as a result 
then of only the screening process at the checkpoint, where if 
in fact you violated the rules, one of those compromised rules, 
you became a selectee and, as Senator Breaux suggests, every 
piece of clothing he owns has now been investigated many times 
by screeners along the way. 100 percent identification is 
critical to the new system, but it has to be one that does not 
impose privacy violations on the traveling public.
    The second piece then is, once you know for sure who the 
individual is, what are we bouncing it against? What are we 
comparing it to in the way of sophisticated lists of concern to 
the United States of America, whether they are forthcoming from 
the Joint Terrorism Tracking Task Force, or the FBI, or 
Interpol, or our own watch list or no-fly list? How robust is 
the process by which we are comparing the individual now that 
we know for sure who he or she is against that list?
    When we are able to do that--and the technology is one of 
those things that we should take advantage of immediately, 
because the technology is there for us right now. We can do 
those kinds of list millions of times with a less than 3-second 
turn-around, once we have developed the engagement effort that 
we need to for that particular process.
    So I would like to think that within the balance of this 
calendar year, and on into the early part of the next calendar 
year, we will have built that portion of our new system. You 
might have seen this discussed pretty thoroughly with a very, 
very good article on Tuesday of last week in the Washington 
Post, when they ran that trio of articles on aviation security 
generally. The second one was about the CAPPS-2 system, and I 
would seek the support of the Committee to enable us to get the 
resources necessary to get that done quickly, because once we 
do, we will then not be looking at blue-haired grandmothers and 
infants in the strollers.
    Senator Brownback. And I would hope you would. And the 
training you are providing to individuals and the guidelines 
you are giving to the private companies would urge them to also 
review the subjective situations they are in. I mean, if you 
have four young males traveling together on a plane that look 
suspicious, but none of them clicks off in the computer system, 
do they receive training and authorization to be able to check 
into a situation like that?
    Admiral Loy. The process of where the TSA takes over that 
effort is at the checkpoint where they have already normally 
gone through the airline-driven process of being identified as 
a selectee, so as the selectee, quote-unquote, identified on 
the boarding pass shows up at the checkpoint, that TSA in the 
future, or even the third party screener of today, the decision 
has already been made for them to do what they are supposed to 
do next.
    Now, I would say, especially because of the inordinate 
imbalance between the CAPPS-1 process as it impacts smaller 
airlines and as compared to the larger airlines, we have 
already seen some significant discontinuities in the data 
there. We should be able to--in the time between CAPPS-1 and 
CAPPS-2 we need to do a better job of providing guidance as you 
have just described, so some good human judgment is entered 
into the system.
    Senator Brownback. The second thing I get asked a lot about 
is dropping off and picking up passengers, and I do not know if 
you have control over this particular situation, or have any 
input, but constantly having people circle around airports I 
really question. Are we really gaining anything securitywise or 
not with that?
    Admiral Loy. Sir, what I have asked for is a review of 
rules that have been put in place, especially those that were 
sort of put in place just since 9/11 almost impulsively in the 
aftermath of 9/11, and even those like the two questions rule, 
which we have eliminated as of 2 weeks ago, I am bringing each 
of them sort of one at a time onto my desk, really thoroughly 
reviewing them and saying to ourselves, is this adding to 
security? Is this adding to the hassle of the American 
traveling public, and what is the balance that we have reached 
here in terms of whether the rule, as specified when we put it 
out, can be tailored to make sense in the security environment 
we find ourselves in a bit later.
    Now, that has nothing to do with failing to continue to 
recognize the legitimacy of the threat, as Senator McCain 
mentioned in his opening statement. That is for real, every 
morning at 7:15 to 8:00. I am looking at that material and 
being briefed, so the legitimacy of the threat is absolutely 
still there, but we can bring onto the table and reconsider 
things we have imposed in the past, and we have done that 
already.
    Part of this was not carrying a cup of coffee through the 
mag, and now when we know we can do that safely with paper cups 
and with polystyrene cups, we have allowed that to now be part 
of a revised rule. The two questions have been brought on the 
table and considered, and found not to be a part of security, 
and we have eliminated that.
    We are looking at the 300-foot rule for airports, and we 
are looking at that as to whether you have to continue to 
circle or not, and there are three or four others, and frankly, 
as you experience, sir, whatever you experience at the airport, 
I would be delighted if you would let me know what you consider 
to be a less than thoughtful rule, and maybe one not 
contributing to security, and let me bring that on the table, 
too.
    Senator Brownback. I appreciate that you are looking at 
those, and God speed. As I look at it, the thing I still get 
concerned about is checked luggage as much as anything right 
now. To me, that is still the area that--well, I want us to 
expedite some of the others, because I look at it and I just 
really question whether we are getting much, but that checked 
luggage area, that one still causes me great concern.
    Admiral Loy. Sir, when you are putting both the passenger 
and the baggage in the air compartment together, that should be 
the one that gives us the greatest pause.
    Senator Brownback. And we have people willing to attack us 
that they do not care whether they die in the process, too, so 
that increases their options for destruction, and so it is not 
just enough to put the bag with the person any more. I mean, we 
have got to get through, and know what is in that bag when they 
check it at the airport.
    Admiral Loy. Sir, it goes right back to Senator Hollings' 
concerns with respect to the impenetrable cockpit door.
    Senator Brownback. Thank you.
    The Chairman. Senator Fitzgerald.

            STATEMENT OF HON. PETER G. FITZGERALD, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Fitzgerald. Thank you, Mr. Chairman, and Admiral 
Loy, thank you for being here. I have to apologize, I have a 
cold, and I sound worse than I actually feel, but please bear 
with me.
    I noticed in your opening remarks you talked about your 
intent to implement a trusted traveler program which you would 
like to call a registered traveler program, and I guess I 
wanted to talk to you about that. I think that is very 
important if we want to save commercial aviation in this 
country. Our airlines are continuing to suffer with diminished 
revenues and declining number of passengers, and I suspect a 
large part of it is the hassle factor that people perceive at 
our Nation's airports.
    Do you have a deadline in mind? I know you have a lot of 
other things you have got to accomplish, the first among them 
being scanning all the bags by December 31 that go into the 
planes, and it is appropriate that you focus on that, but do 
you have a deadline in mind for implementing a trusted traveler 
program?
    Admiral Loy. Senator Fitzgerald, I do not have a date 
certain in my mind, but I certainly have an ASAP kind of notion 
to making it happen. Before you came we discussed it a little 
bit earlier, and one of the things that I pointed out was that 
the language in the supplemental tells me to no longer fund the 
development of a transportation worker's identification card, 
which was the beginning, the foundation step, if you will.
    Senator Fitzgerald. Did anybody tell you the reason? When 
they just denied you the funds, the Appropriations Committee, 
did they tell you why?
    Admiral Loy. I have some insights to that, sir, and I am 
working very hard with Chairman Rogers, because he most of all 
has the well-being of our country at heart, and at the other 
end of that conversation we are going to work very strongly 
together.
    His concern was that we were marrying up with the DOD ID 
card implementation process. He wanted to make sure that the 
difference between a chip card and a laser card was well 
understood, and that we could press forward together on 
designing what would be a card that had the functionality that 
we really needed for not only transportation workers, as an ID 
card and access control card, but also one that could grow into 
a registered or trusted traveler program as well.
    Senator Fitzgerald. What do you envision for a registered 
traveler program, that the registered traveler would have some 
kind of special ID card?
    Admiral Loy. It may, sir, even just be a number in the 
registry, such that at the same time you make a reservation, if 
you are giving them your frequent flyer number, if you are able 
to give the reservation agent your trusted or registered 
traveler number, that there would be a window inside the 
software of our new computer-assisted passenger screening 
system that would recognize the validity, if you will, of a 
trusted traveler and incorporate that right into the incentives 
necessary to screen people in the airport.
    Senator Fitzgerald. How would you envision getting these 
trusted travelers into the secure area more quickly? Would 
there be a special checkpoint for them, and how would you know 
that that would not get more jammed up, because as you point 
out, many of the travelers in our airports are frequent flyers?
    Admiral Loy. Two issues, one, how do you become a member of 
the registered traveler community, so to speak, and that would 
all be about adequate criminal background checks, and the 
legitimacy of what the inventory of things would be that would 
enable you to become one, and then secondly, what is it--now 
that you have been incentivized to become one, what is the 
reward, so to speak, as it relates to the security system that 
you deal with at the airport?
    First of all, we should not put it in our minds that we 
eliminate screening for those folks. Rather, in the same 
fashion that we were trying to design a notion about containers 
coming into the country, where we could identify maybe the 
large volume of the good guys and allow, whether it is known 
shipper programs, or whatever becomes the combined Coast Guard-
Customs effort in that regard, we want to be able to identify 
the good guys so that the small number of resources that we do 
have can be concentrated on the ones we do not know completely.
    And in the same fashion, in our airports we would think 
that a registered traveler program should be incentivized to be 
expedited through the security paradigm at the airport because 
they travel so frequently, and that, in and of itself, becomes 
a reduction in the total wait time for everybody that is in 
line at that airport.
    And, sir, I might add we must have in mind we have to 
expand this to passenger cruise ship terminals, to potentially 
railroad stations and bus terminals, or whatever else. We 
cannot see this as just an airport aviation industry issue. It 
has to be the full transportation system that we serve.
    Senator Fitzgerald. So there is a lot we really--it is just 
a concept, and now we really do not know how this would be 
implemented.
    Admiral Loy. There are some very, very bright folks that 
traveled with me, I being not among them in this particular 
instance, to this plant down in Corbin, Kentucky which is now 
making the new family of green cards for INS, a combination of 
a company known as SEI Technologies. Datatrack and the INS have 
an installation there serving that particular Federal agency 
with the issuance and creation of their new ID cards.
    We learned an awful lot while we were down there and, as I 
say, need to recalibrate our jump-start now that we have been 
zeroed out with respect to funding on the transportation 
workers' identification card.
    Senator Fitzgerald. With respect to the next generation of 
explosive detection equipment--you mentioned that in your 
opening remarks--what is on the horizon? Is it a matter of us 
pouring more money in to come up with the next generation, or 
can we already discern the next generation explosive detection 
equipment, and how much better and faster will it be than what 
we are currently using?
    Admiral Loy. Yes, sir, we certainly--I think there are two 
priorities in what I would call our R&D end of TSA at the 
moment, in addition to issues like the blast-resistant 
containers for baggage in the bellies of the wide bodies, but 
there are a number of other ones.
    I do not want to discount those as being very important. 
They are very important, but the two that I think are 
overwhelming are CAPPS-2, the second generation computer-
assisted passenger screening system, and whatever is the next 
generation of explosive detection equipment we think we see, 
and we have looked very hard, Senator Fitzgerald, and we do not 
see anything out there before the 3 to 5-year horizon, but we 
absolutely must be investing today so that if, in fact, the 3 
to 5-year horizon is the right answer, that we will be ready to 
replace either the ETD systems and their attendant dependence 
on people--that is an enormously expensive people tail 
associated with the ETD--or these huge cumbersome EDS systems 
that we are stuck with as the two legitimate, for all the right 
reasons, pieces of equipment that can be designing into our 
airports today.
    So there is pulse fast neutron analysis out there which is 
promising. There is a variety of different activities that are 
being undertaken by our technical center up in Atlantic City to 
continue to explore. We have visited virtually every major 
European nation to check what they are doing with respect to 
anything that might be imminent.
    Sadly, I cannot report to you today, sir, that we see 
something obvious as the next generation of EDS. We must make 
the investment to do that.
    Senator Fitzgerald. Finally, if the chairman would indulge 
me, I see my red light is on, but forgive me if I should know 
the answer to this, but our commercial air passenger aircraft 
in this country, they also carry a lot of freight cargo, is 
that not correct?
    Admiral Loy. Yes, sir.
    Senator Fitzgerald. Is that freight cargo examined in any 
way, and did our bill address that issue?
    Admiral Loy. The bill identified cargo as an issue, but it 
was pretty clear that the prioritization within the bill was 
this 100-percent mandate and date certain on the two things of 
passenger checkpoint screening and, as you said, baggage 
screening.
    We had a good conversation with both Senator Snowe and 
Senator Hutchison, each of which has introduced legislation 
about cargo in aircraft. Their legislation has really excellent 
notions about it in terms of the whole idea of technological 
monitoring, the whole idea of supply chain management, so that 
you are able to trace what you put in a box, or what you put in 
a container, or what you put in a whatever, and sealed it, that 
it was untampered with by the time it got to you.
    Senator Fitzgerald. Can I stop you right now? We are not 
doing any checking?
    Admiral Loy. We are not doing what we need to do.
    Senator Fitzgerald. And on December 31, and going into next 
year, freight cargo in airplanes will continue to be 
unexamined?
    Admiral Loy. We have a protocol in place, sir. It is not as 
if we are doing nothing. We have a protocol in place that 
requires a security profile. We require somebody to be 
responsible for all of that, that is dealing with it. We have 
eliminated postal cargo, for example, only up to the 16-ounce 
idea, and we are trying very hard to find out how we 
reintroduce postal cargo into the aircraft, because that is a 
very serious revenue source for the airline.
    So we are doing some things. I am just suggesting that 
cargo is an area that we have to spend more attention to, and 
we need the resources to do that.
    Senator Fitzgerald. But I guess the message for the 
American public would be, even after all the passengers' bags 
are being scanned, they should not feel too good about things 
in the air, because there is cargo probably on the plane that 
they are flying on that has not been scanned.
    Admiral Loy. If it is an aircraft that is greater than 
95,000 pounds at certified takeoff weight, it absolutely has 
been screened.
    Senator Fitzgerald. Now, what kind of planes are going to 
be greater than 95,000 pounds? Would a 737?
    Admiral Loy. Yes, sir.
    Senator Fitzgerald. How about a 727?
    Admiral Loy. It is the window below that that does not 
require the screening of passengers and baggage.
    Senator Fitzgerald. It seems to me that is troubling. We 
have a gap here that we somehow need to address, and it is a 
thorny issue, because that freight cargo is an important source 
of revenue for the airlines.
    Admiral Loy. It is a challenge, sir, and you are absolutely 
right.
    Senator Fitzgerald. Well, let me compliment you. You have 
been on the job 7 weeks, and you can bring, I can tell, a lot 
of determination and you are enthused about your job, and I can 
sense that from your testimony, and I think you are a very good 
person to be in charge of this. I do not envy you, though, 
because it is a real monumental challenge that faces your 
administration, but thank you for the good work you have done 
thus far, and good luck on implementing the remaining 
obligations you have under the act you passed last year, and 
Mr. Chairman, I want to thank you for holding this hearing.
    The Chairman. Thank you very, very much, Senator.
    Admiral Loy, with respect to the registered traveler 
program, just as these things come to mind, it was 
Intellicheck, it was a card that had on the magnetic tape part 
the fingerprint or some other identification. They have already 
been contracting with the Government in some agency.
    I am, like every other Senator, everybody keeps coming in 
trying to sell you some equipment and everything else, and so I 
hope you have just got a little task force that is looking at 
all of this, because you cannot spend time meeting all of those 
folks, but look at that one, too. It looks, since they are 
already doing work with the Government--it impressed me. We can 
look at that one.
    Admiral Loy. Yes, sir.
    The Chairman. With respect to the roll call now, on what 
you need, you need the supplemental, 546 to get up to that 
figure. Now, that $45,000 limitation on screeners and 
personnel, that was just in the appropriations bill, so I think 
that will expire at the end of this month. It is not for 2003, 
is it?
    In other words, you have got 30,000 passenger screeners and 
22,000 baggage screeners for $52,000, and it is really going to 
be more than that, is it not?
    Admiral Loy. It is likely to be more than that when you 
consider that the FAN program and others are part of that total 
inventory in the organization.
    Thanks for the opportunity to just mention a word or two on 
that, Mr. Chairman. I think we will be just fine through 
Novemberish, or into sort of maybe even early December with 
that $45,000 limit, but it will not be replaced until there is 
an appropriation that replaces it, if, in fact, that occurs, 
and that is enormously important for us to deal with.
    I think there was justifiable concern on the part of 
Members of the Congress that they had an inadequate feedback 
from us in terms of what was really needed in the way of that 
body count, if you will, and that is why I wanted to bring 
those slides and let you understand that we have really 
scrubbed those sort of checkpoint models, eliminated positions 
that we did not think were appropriate, and we will have a good 
report for you, sir, on that, so you can feel comfortable that 
what we are asking for is what is actually needed.
    When the 33,000 figure was established when the Congress 
first thought about screening, it was about passenger 
checkpoints, and then when the subsequent additions of baggage 
screening were added, the number sort of never was adjusted 
from 33. We planted this 33,000 number in our minds, and then 
when we added the notion of gate screening, which I frankly 
want to eliminate, and the notion of baggage screening, that is 
when the numbers began to climb, and there was an inadequate 
exchange of information, I believe, back and forth.
    So as you review the appropriation request for 2003, I 
would like to work with the Committee and with the 
appropriators, of course, to get the right number. It is going 
to be more than 35,000.
    The Chairman. On that score, and also with the registered 
traveler program with Chairman Rogers over on the House side, I 
have worked with him over the years. He is good to work with, 
and if you have got any difficulty there, let me know, because 
I would be glad to work with him on it, on his concerns. He is 
outstanding.
    Admiral Loy. He truly is, sir.
    The Chairman. With respect to, now, your other CAPPS, and 
we have been giving each other kudos all morning, we flunked 
the course on port security. We flunked the course on rail 
security. We passed a rail security bill, and we have had an 
Amtrak bill with a rail security provision. The rail security 
section was before Christmas. We have not even called it up for 
debate. Get on the administration, because they have got holds 
on the Republican side. I have got to get Senator Fitzgerald to 
get on them or something.
    I need to get something moving, no kidding. We have not 
done anything. Amtrak, we just give it conversation, but we 
have not stabilized it. Otherwise, on the ports, you and I have 
been down, we have had hearings with the Coast Guard, all the 
port officials. Your Coast Guard has been having various 
meetings trying to devise a plan, but they do not settle on a 
final plan on port security until they hear from Washington.
    They do not want to get it all together and get halfway 
done and then Washington comes out and says, oh, no, you have 
got to do it this way, and that is being held up over on the 
House side for money. I have gone back and forth, and what they 
do not want to do is pay for it. I will go over the user fee, I 
will go over the tax, we will go any which way the 
administration wants to go, but you have got to pay for it, and 
that is still in conference, and that port security bill was 
passed 100 to nothing.
    All the Republicans, all the Senators voted for that before 
Christmas, and this is September, and we are all saying, look 
at what we have done for the airlines, and everything else like 
that, but that is how Bin Laden blew up both Dar-es-Salaam and 
Nairobi. It was his ship that went into the port in Kenya, and 
he could come into Philadelphia and blow up that tank farm and 
the Eastern Seaboard would be closed down for a year.
    You and I know that, because you have been in maritime, and 
we do not say anything about it, and that is why we do not have 
the baggage blow up. I mean, why blow up baggage in one plane 
when they can go for something big. This crowd is serious. They 
are suicidal, and they are not going to go for a little bag 
blowing up. I am not worried about that. I am worried about 
just that, a ship being overtaken, any kind of regular oil 
tanker coming in, and going in and blowing up a tank farm in 
Houston or Philadelphia, or some other big place like that. 
That is their mind set, and we have got to be able to get ready 
for it, and we have not done it, and you can get on them 
because you know it better than anybody, that particular part.
    I know Senator Smith and others had to leave, and they had 
several other conflicting hearings here this morning. Senator 
Fitzgerald, we are going to keep the record open for those 
questions by the Senators, and the Committee--excuse me, 
Senator Fitzgerald.
    Senator Fitzgerald. I just have one final question. I know 
that the Transportation Security Administration has announced 
its intention to do away with those 16-year-old questions they 
ask you at the airport, have all the bags been under your 
control and so forth. Do you have a time frame for that? They 
are still asking those questions the last time I was at the 
airport.
    Admiral Loy. It is done, sir. I will follow up with the 
respective airlines. We did that 2 weeks ago.
    Senator Fitzgerald. Okay, but probably the employees have 
been doing it for the last 16 years, and they just may be still 
doing it by rote, but they do not have to any more?
    Admiral Loy. That is correct. We eliminated that 
requirement, and there is a real practical tone to that as 
well. If you are standing in a line of 30 people, or 40 people, 
and each time that question is asked of the individual in front 
of you the law of aggregate numbers tends to add up, and say 
the guy at the tail end of the line has wasted another X number 
of minutes, whether it takes 15 seconds to ask those questions 
or whatever,
    So yes, sir, that is behind us, and as I indicated earlier 
also we are bringing all of those rules, quote-unquote, onto 
the table and examining them closely, and validating those that 
contribute to security, but looking at that sort of through the 
prism of customer service at the same time.
    Senator Fitzgerald. Well, I congratulate you for doing away 
with those questions. Obviously, a terrorist is not going to 
answer those questions wrong, and just out of curiosity, how 
many people answered those questions wrong?
    Admiral Loy. Anecdotally, every once in a while there would 
be some virtuous person who would come there and insist that 
yes, I set it down when I went to lunch, or whatever, and they 
were even being talked into giving the right answer. It was a 
bad scene, and long now gone, we hope.
    Senator Fitzgerald. Well, thank you very much, Admiral.
    The Chairman. And finally, along that same line, Admiral 
Loy, yesterday--and I see it every time I board to come back on 
Monday. You go through the check down there in Charleston, and 
then you can see the spot checks on either side. There is a 
team of four here, and a team four on the other side at the 
Delta counter. I am over at the USAir, and they are just 
sitting around shooting the bull and waiting for another 
boarding, and then they open a couple of bags, and that is a 
waste. Get another machine and facilitate or accelerate the 
actual check.
    If you had another machine, that eight personnel, you could 
cut half of them out and just use the four with another machine 
and save the money.
    Admiral Loy. Yes, sir, technology is part of the answer, 
and as I again tried to show the reductions that we have 
scrubbed out of the checkpoint standard models----
    The Chairman. Well, scrub Charleston for me.
    Admiral Loy. I will do that.
    The Chairman. Thank you very much, and the Committee is 
really indebted to you, and let us know up ahead anything.
    The Committee will be in recess, subject to the call of the 
chair.
    [Whereupon, at 11:55 a.m., the Committee adjourned.]


                            A P P E N D I X

                 United States Department of Transportation
                                  Washington, DC, September 5, 2002
Hon. Ernest F. Hollings,
Chairman,
Commerce, Science, and Transportation Committee
Washington, DC.

Dear Mr. Chairman,

    This responds to your letter to me of August 1, 2002. I wanted to 
answer your question on my views about whether and how to arm flight 
deck crews operating commercial aircraft. The balance of the questions 
in your letter will be addressed by separate correspondence, which I 
will send you later this week.
    After I began work as the Acting Under Secretary at the 
Transportation Security Administration (TSA), aud following the vote in 
July by the House of Representatives supporting a program to arm pilots 
with lethal weapons, Secretary Mineta asked me to review the range of 
issues associated with a voluntary deployment of guns in the cockpit. 
His concern and mine is, above all, to ensure the safety of airline 
passengers and crew. I have finished my review and wanted to share my 
conclusions and concerns with you while the discussion continues in the 
Congress.
    Our review included significant outreach in which we sought counsel 
from airlines, pilots, airports, the FAA and numerous federal law 
enforcement agencies, including the FBI, Secret Service and ATF. The 
study team evaluated a range of deployment and training options and 
numerous associated policy and budget issues. The review was intended 
to reach general conclusions and also to outline the elements of the 
general protocols to be followed if a decision was made to arm pilots. 
A core assumption of pending legislation, and also of our review, was 
that any program would be carried out by volunteer pilots who would 
receive taming consistent with the designation as armed Federal Flight 
Deck Officers.
    We concluded that if legislation is passed authorizing a program to 
arm pilots with lethal weapons, it would be preferable if pilots were 
individually issued lockboxes that would be used to transport their 
weapons to and from the aircraft. They would be trained on weapon use 
and their responsibilities under the program, and subject to periodic 
evaluation. The pilots would be responsible for maintenance and proper 
care of the weapon. We determined that the alternative program design--
having general use weapons stored aboard an aircraft and maintained by 
a cadre of airline employees--poses greater security risks, operational 
complexity and cost.
    Many of the federal law enforcement experts we consulted continue 
to have significant concerns about arming pilots with either lethal or 
non-lethal weapons. The airline industry shares these concerns. The 
Board of Directors of the Air Transport Association has sent Secretary 
Mineta a letter signed by twenty-one airline chief executive officers 
urging a cautious approach to arming pilots and outlining their 
concerns. We agree that there are literally dozens of issues that would 
need to be resolved as part of a program involving lethal weapons. Let 
me mention a few such issues or questions:

    Training curricula and program design. We estimate that some 85,000 
pilots may be eligible for the program authorized by the House. In 
order to avoid significant safety and security risk, a detailed, 
effective training program must be designed from scratch and tested. 
This must include firearms training and safety instruction. It would 
include classroom training on numerous issues, such as airport security 
procedures that would be established for airline employees to carry 
weapons through airports, and the legal liability and responsibilities 
of employees and airlines when a weapon is carried on duty and off 
duty. It must include specific training about the circumstances under 
which the weapon may be used onboard the aircraft and outside the 
aircraft at airports and within the community at large. It must 
establish protocols and communications tools to coordinate a pilot's 
responsibilities with those of Federal Air Marshals and other law 
enforcement officers authorized to travel armed. It is possible that 
special training facilities would be needed for high-volume training, 
so that the program could incorporate at least some practice in a 
simulated aircraft environment, such as is provided to our Federal Air 
Marshals.
    Cockpit modifications. In order to allow ready access to the weapon 
in the cockpit while securing it appropriately, it would be necessary 
to install special sleeves for the weapons in each cockpit. Obviously 
each different aircraft will raise different design and installation 
considerations. It would be necessary for TSA, the airlines and 
aircraft manufacturers to assess these issues in more detail.
    Coordination with other nations and international airlines. There 
are numerous thorny issues that must be resolved with foreign nations 
and foreign airlines. For example, pilots flying international routes 
for a U.S. carrier must comply with gun control laws abroad. In order 
to avoid conflict, TSA, with the support of other federal agencies, 
would need to undertake extensive coordination with countries around 
the globe to clarify rights and responsibilities of airline employees 
traveling armed. Would we authorize the employees of foreign air 
carriers to participate in this program? Would we provide reciprocal 
access to the U.S. if other nations design similar programs to arm 
pilots? What type of background investigation would be possible and 
necessary? Who would pay?
    Complying with state and local gun control laws. We have only begun 
to assess the issues associated with complying with state and local gun 
control laws. Our review suggests that some meaningful legal work and 
coordination would be an early task for the program.
    Legal liability. There are numerous and complex issues of legal 
liability that need careful, thorough review. These relate to the 
pilots, flight crews, other airline employees, the airlines, airports, 
vendors supporting the program and individuals who provide training to 
the pilots participating in the program.
    A large support organization. A worldwide program of this size 
would require sizable staff and support. Existing TSA headquarters 
functions would be considerably stretched in order to manage the 
program, track the inventory of federal weapons and investigate 
accidental weapon discharges, program operation and public complaints.
    Cost. Our preliminary estimate is that a program involving all 
commercial pilots could cost up to $900 million for the start-up and 
some $250 million annually thereafter. Of course these estimates must 
be refined to reflect details of an actual program, including the 
possibility that fewer than all commercial pilots will participate. 
These estimates do not include any projections for necessary cockpit 
modifications to accommodate ready access to the firearms. The total 
program costs may vary widely according to program design decisions, 
but any program open to all pilots would be very expensive. TSA's 
current budget does not allow for further work in this area, which 
raises the question of who will bear the cost of this potentially 
expensive program.
    I am convinced that if there is to be responsible legislation 
establishing a program to allow guns in the cockpit, it must address 
the numerous safety, security, cost and operational issues raised by 
TSA's review, and should enable us to implement the program in a 
methodical, careful, and pragmatic manner.
    I remain committed to working with the Senate and the House of 
Representatives on this important issue. I have provided an identical 
copy of this letter to Senator McCain. Thank you for your interest and 
leadership in this matter and I took forward to our hearing next 
Tuesday.
        Very Respectfully,
                                              James M. Loy,
                                            Acting Under Secretary.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to
                          Admiral James M. Loy

    Question. 1. The Budget--What level of funding do you need for 
Fiscal Year 2003 to implement the requirements of ATSA by program and 
activity? Explain specifically how the FY 2002 funds will be expended 
and specific areas of shortfalls, if any.
    Answer. Attachment A to this document is a table showing TSA's 
program budget for fiscal years 2002 and 2003 and a letter from 
President Bush presenting FY 2003 budget amendments to Congress.*
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
    The first numerical column in the table ``FY 2002 Proposed 
Program'' depicts TSA's requested fiscal year 2002 budget. The second 
column displays the specific program reductions achieved to remain 
within constrained resources levels (``Program Increases or 
Decreases'') necessitated by current year appropriation levels. The 
third column ``Earmarks Above Request'' shows additions to the 
President's FY 2002 supplemental request.
    The column entitled ``Allocation of Total Appropriated'' displays 
how we have budgeted our FY 2002 funding by line items. These figures 
include the full costs of the various activities. For example, activity 
I.A., Passenger Screening, includes all the costs associated with that 
activity, including such items as third party screening contracts, 
personnel compensation and benefits of Federal screeners, recruitment, 
training, uniforms, and checkpoint screening equipment. The FY 2002 
figure does not reflect $480 million in contingency funding that was 
included in the recently enacted supplemental appropriation.
    The last column on the table shows TSA's funding requirements for 
FY 2003. This is the sum of the ``Budget Amendment'' and ``President's 
Request'' columns. The ``Budget Amendment'' column displays costs that 
are advanced into fiscal year 2003 or new programs, such as ``Security 
Grants to Trucking Industry''. The Administration has also changed its 
2003 budget request by substituting $100 million for aircraft cockpit 
door hardening in place of port security grants, as $125 million was 
provided in the supplemental appropriation for that purpose.

    Question 2. Screener hiring--How will you meet the deadline? What 
is the status of hiring and training and what type of problems are you 
encountering? How many Federal Security Directors (FSDs) have you hired 
to date? What is the hiring process and schedule for the remaining 
airports? For airports that will not have an FSD on site, who will be 
in charge of security at those airports?
    Answer. Screener Hiring--All airports are scheduled to have Federal 
screeners in place not later than November 18, 2002. As of the week of 
September 1, we have deployed Federal screeners to 82 airports.

    Currently, 26,845 individuals have accepted screening positions. 
The TSA has trained 12,966 passenger screeners and approximately 155 
baggage screeners, and the others are being trained or are scheduled to 
begin training shortly. Our plans call for the training and deployment 
of approximately 21,000 baggage screeners by mid-December, with the 
highest volume of training to begin in October.
    We intend to hire a total of approximately 52,000 screeners--30,000 
passenger screeners and 22,000 baggage screeners. In certain markets, 
TSA initially encountered difficulties finding suitable candidates. We 
have developed and executed outreach programs to address these issues 
and have now achieved satisfactory applicant pools.
    FSD Hiring--149 out of a total of 158 Federal Security Directors 
(FSDs) were on board by August 30th. We have selected four additional 
FSDs. FSDs at five airports have not yet been identified. We are 
reviewing certification lists of candidates for these positions in 
order to make a selection and will fill all remaining FSD positions 
quickly.
    The 158 FSDs will be located at a Hub Airport, usually a larger 
Category X, I, or II airport, serving as a major transfer point for 
several airlines. An additional 106 airports will be staffed with 
Deputy FSDs who will report to an FSD at a Hub Airport. Finally, 183 
smaller airports, typically Category III or IV, will be staffed with a 
supervisor level manager who will report to an FSD at a Hub Airport in 
the region. TSA is working aggressively to complete the hiring of 
Deputy FSDs and Supervisors.

    Attachment B contains charts detailing screener and FSD hiring and 
deployment information.*
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.

    Question 3. Explosives Detection Systems--It was envisioned that 
EDSs would be deployed inline in the basement of airports. The plan, as 
developed by TSA, will deploy EDS and a smaller unit Explosives Trace 
Detection (ETD). A number of European airports use them together, as 
will some U.S. airports. The Committee is aware that a handful of 
airports may need additional time to install and deploy this equipment. 
Section 110 of P.L. 107-71 provides the Administration with sufficient 
flexibility to respond to these particular concerns at these airports. 
Would you provide the Committee with a list of the equipment by type 
that has been installed at each airport to date and the installation 
schedule for the remainder of the airports? Can you tell me which 
airports will need more time, and give me a schedule for those that may 
be delayed?
    Answer. While the Aviation and Transportation Security Act (ATSA) 
provides flexibility in the types of equipment we could deploy for 
meeting the mandate to screen all checked baggage, we are still under a 
strict requirement to achieve this goal by December 31, 2002. TSA has 
certified both CT-scan EDS machines and ETD machines to meet this 
requirement. We continue to work closely with air carriers and the 
airport community to deploy explosives detection equipment in ways that 
will meet our security objectives and statutory requirements while 
minimizing, as much as possible, operational impact and cost.
    With adequate funding, as requested by the President, and assuming 
that the existing TSA employment cap imposed by Congress as part of the 
July Emergency Supplemental is lifted, we currently estimate that in 
more than 90 percent of the commercial airports we will be able to 
install the permanent solution necessary to complete 100 percent 
baggage screening by December 31, 2002. A small number of airports, 
mostly large airports, present unique challenges that will result in 
extensive installations that may still be ongoing into a part of 2003. 
In each case, TSA will work closely with airport stakeholders to deploy 
temporary measures by the end of the year that will allow us to fully 
meet the objectives of the legislation for an effective program of 
explosives detection for all checked bags at all airports. This plan 
obviously involves security sensitive information, the disclosure of 
which would be quite harmful. I would therefore be happy to provide 
more information about this part of our plan in a classified briefing.

    Attachment C contains sensitive security information (SSI) 
detailing the equipment thus far installed at airports. When we have 
completed our assessments at all airports, we will provide further 
specific details as to the type and quantity of equipment that will be 
deployed to provide 100% checked baggage screening by EDS/ETD at all 
domestic airports providing commercial service for the traveling 
public.*
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.

    Question 4. Cockpit Doors--Right now TSA can order procedures to 
lock the cockpit doors during flight. A number of carriers are looking 
at ways to put in double doors or removable barriers to allow ingress 
and egress to the cabin as needed. Please explain current fortification 
requirements and schedules for cockpit door reinforcement. Please 
explain why you do not order that doors be closed at all times during 
flight.
    Answer. ATSA, section 104, gives the Federal Aviation 
Administration (FAA) the mandate to improve flight deck integrity 
measures, including the strengthening of flight deck doors. As a 
result, the FAA has required major air carriers, including foreign air 
carriers operating within the United States, to reinforce their cockpit 
doors on all aircraft on an interim basis with lock bars and other 
locking devices, and they have complied.
    Additionally, the FAA has required that air carriers have new 
hardened flight deck doors in place on all U.S. passenger airplanes and 
foreign airplanes that fly into and out of the United States by April 
9, 2003. On August 28, FAA officials met with air carriers and door 
manufacturers to assess progress toward implementation of this rule. 
Currently, cockpit door designs have been certified for approximately 
55 percent of the domestic fleet and 40 percent of the international 
fleet flying to the United States. Installation of these approved 
designs has begun. FAA is working closely with the manufacturers to 
certify designs for the remaining aircraft.
    Along with the Federal Air Marshal presence and impending changes 
to current bulkhead, surveillance, and transponder requirements, the 
threat to normal flight operations of opening and closing of the flight 
crew compartment doors will be greatly minimized, if not totally 
mitigated.
    With respect to closing and locking of the flight crew compartment 
door, the FAA's rule requires that the flight crew compartment door 
will normally be closed and locked at all times during operation of the 
aircraft, with certain limited exceptions. Exceptions include opening 
of doors to allow pilots to use the lavatory and to provide food to the 
pilots. Current aircraft configurations do not allow for the placement 
of lavatories or kitchens within the cockpit. Additionally, in 
emergency situations, rescue personnel may need to enter the flight 
deck if windows are not useable.

    Question 5. Arming pilots--The statute included provisions that 
allow the Administration to pursue arming pilots with firearms or less-
than lethal weaponry and you stated at the hearing that the 
administration would review the matter. Please advise me of your 
recommendations on whether or how to arm pilots.
    Answer. Please refer to my letter, dated September 5, 2002, that 
responds to this question in detail.

    Question 6. Flight attendant training--How many flight attendants 
have been trained to respond to a security crisis or on techniques that 
will improve security? What is the type and extent of the training? 
What is the schedule to complete the training?
    Answer. Regulated air carriers are responsible for providing 
security training to their flight deck and cabin crews. On January 18, 
2002, FAA, in consultation with TSA, issued comprehensive requirements 
for an industry-wide training program for flight attendants. This plan 
included guidelines on how to deal with suspicious items discovered in 
flight and recommended training methods to address varying levels of 
passenger aggressiveness. Each air carrier was obliged to develop its 
own training program to ensure that the elements of the FAA guidelines 
are presented in an effective manner.
    The air carrier's training programs were due to FAA by March 18, 
2002, with FAA having 30 days to either approve the programs or return 
them to the carriers for modification. As of April 18, seventy-five of 
the seventy-seven training programs were approved. The remaining two 
programs were approved in June and July. The air carriers have 180 days 
from the date of receiving FAA approval to complete crewmember 
training. Training for the first 75 air carriers will be completed by 
October 2002. The final two will be completed by January 2003.
    FAA and TSA would be happy to provide your staff with a briefing 
about details of the plans, if desired.

    Question 7. Technology--What new technologies, such as biometrics, 
smart cards for employees, and/or universal access cards is the 
administration testing or has procured to process airline passengers 
more effectively?
    Answer. The Conference Report on fiscal year 2002 Supplemental 
Appropriations required TSA to suspend work on the Transportation 
Worker Identification Credential (TWIC) program. We have asked Congress 
to restore our discretion to proceed with this important program.
    TSA continues to evaluate the use of a ``Registered Traveler'' 
program, which likely would involve the use of smart card technology. A 
registered traveler card would need to provide a reliable method of 
positively identifying an individual through biometric or other 
technologies and would have to prove difficult or impossible to tamper 
with or forge. Deployment of the ``Registered Traveler'' program would 
be part of the TWIC program. Work already completed on this program 
proposed a ``smart'' common credential for all transportation workers 
requiring unescorted physical and logical access to secure areas of the 
nationwide transportation system.

    Question 8. Reimbursement of Law Enforcement Officers--TSA has 
committed to reimburse airports for Law Enforcement Officers that have 
been stationed at airports since 9-11. The airports have submitted the 
necessary information, but have not yet been paid. How much has been 
requested by the individual airports? When will that money be 
transferred to the airports?
    Answer. As of August 15, 2002, TSA has received 78 invoices, 
totaling $5,058,522.22, for Law Enforcement Officer services provided 
by local authorities. Of this amount, 45 invoices totaling 
$2,659,499.02 have been approved for payment. We anticipate that all 
approved invoices will be paid by the end of this month.
    An additional 23 invoices totaling $2,095,711.32 have been 
disapproved for various technical defects including the absence of a 
Taxpayer Identification Number, the lack of signature on the requisite 
certification, etc. Local authorities have been asked to remedy the 
defects; disapproval does not indicate rejection of the claim on its 
merits. These invoices will be processed promptly when resubmitted.
    Finally, 10 invoices totaling $303,311.88 are in the review 
process.

    Question 9. Charter Security--There are numerous questions 
surrounding the issue of charter security. What procedures apply to 
those above 95,000 pounds, what procedures are appropriate for small 
aircrafts and is the weight standard based on the original certified 
weight, for example, or the actual weight of each aircraft?
    Answer. TSA issued a rule on June 19, with a request for comments, 
that requires private charter passenger operators in aircraft with a 
maximum certificated takeoff weight (MTOW) of 95,000 pounds or more to 
adopt a TSA-approved screening security program. The security program 
will establish procedures to ensure that passengers and their 
accessible property are screened prior to boarding. Although the rule 
became effective on August 19, TSA notified the public that it would 
amend the rule as needed, based on all comments received.
    TSA received approximately 100 comments from affected entities and 
is in the process of analyzing them now. Many commenters, including 
aircraft manufacturers such as Bombardier and Boeing, suggest changes 
to the standard. Bombardier, in particular, has urged TSA to alter the 
95,000 MTOW threshold. TSA is carefully considering this and other 
alternatives, but longstanding principles of administrative law 
prohibit TSA from releasing any final decision on the resolution of 
these comments prior to notifying the public of that decision. TSA 
plans to make its decision and notify the public of it in the very near 
future.
    Security programs constitute sensitive security information and 
cannot be published in the Federal Register. Therefore, TSA has 
distributed its proposed security program directly to affected 
entities, and by Notice published on August 28, invited comments on the 
program by September 30. After reviewing individual comments, TSA will 
issue its final security program to each entity, no later than October 
30, and all entities must be in compliance with it by December 1, 2002.

    Question 10. Funding--ATSA authorizes TSA to recoup from air 
carriers the funds they spent on security in 2000. During the debate, 
the carriers asserted, as I recall, that they spent more than $700 
million. How much have you collected and how much do the carriers claim 
they spent in 2000 under your procedures? The Emergency Supplemental 
provided TSA $3.85 billion, including $783 million for airports. How 
will those funds be expended--for what types of items and at what 
airports?
    Answer. In order to assist TSA in determining the carriers' 
individual and aggregate Aviation Security Infrastructure Fees, TSA 
issued a regulation requiring the carriers to submit all of their 
direct and indirect costs related to screening passengers and property 
in 2000, as laid out by 35 cost categories with explanatory footnotes. 
TSA has received 115 submissions from the approximately 165 carriers 
required to pay the fee (the exact number of carriers is still being 
determined due to complicated carrier ownership structures and code-
sharing relationships among the carriers required to pay the fee). 
These submissions represent over 90 percent of the industry. The 
submitting carriers have reported total screening-related costs of less 
than $310 million.
    Under the TSA regulation, carriers are required to make monthly 
payments of a set percentage of the total amount listed in their cost 
information submissions, unless and until TSA makes a different 
determination of their costs. Thus far, the carriers have paid to TSA 
about $112 million and, under their currently reported cost amounts, 
will owe TSA about $25 million per month.
    TSA is addressing the discrepancy in the cost amounts expected by 
Congress and TSA and the amount reported by the carriers. Together with 
the DOT Inspector General, we have begun to audit the carriers' cost 
information submissions. TSA has also proposed an amendment to section 
118 of the Aviation and Transportation Security Act that would replace 
the fee based on each carrier's 2000 screening-related costs, as 
currently required, with a flat fee that would be apportioned among the 
carriers by TSA.
    Supplemental Funds: Please see the answer to question 1 (page one 
of this document), which addresses budget issues. (Note: The question 
states that TSA received $783 million for airports in the Emergency 
Supplemental. For clarification of the record, the ISA received $738 
million for airports in the Emergency Supplemental.)
                                 ______
                                 
                          Executive Office of the President
                                    Washington, DC, August 30, 2002

President George W. Bush,

The White House

    Submitted for your consideration are requests for FY 2003 budget 
amendments for the Departments of Health and Human Services (HHS) and 
Transportation and for International Assistance Programs. These 
proposals fulfill your commitment to request FY 2003 funding for 
certain contingent appropriations that were not made available from 
P.L. 107-206, the 2002 Supplemental Appropriations for Further Recovery 
From and Response to Terrorist Attacks on the United States; and for 
critically needed resources for transportation security that were not 
provided by the Congress in that Act.
Department of Health and Human Services
    An amendment for the Centers for Disease Control and Prevention 
would provide $100 million of a total of $200 million now requested to 
support your International Mother and Child HIV Prevention Initiative. 
This initiative, to be implemented and managed as one program by both 
HHS and the Agency for International Development (AID), is designed to 
reduce the transmission of the HIV/AIDS virus from HIV infected mothers 
to their offspring at birth in low- and middle-income developing 
counties, and to maintain the health of the mother and child through 
the period of infancy, An accompanying amendment for AID, as noted 
below, would provide the additional $100 million of the $200 million 
total request.
Department of Transportation
    The proposed amendment would provide $546 million for the 
Transportation Security Administration (TSA). P.L. 107-206 provided $10 
billion less than the supplemental request for TSA, and identified 
several funding items that were not part of the original request. The 
additional funding in this amendment would provide TSA with the 
resources necessary to meet the requirements of the transportation 
security law in the most effective, responsible, and efficient manner 
possible.
International Assistance Programs
    The proposed amendments would provide:

 <bullet>   $200 million for the Economic Support Fund to support 
        Israel in its efforts in the war on terrorism.

 <bullet>   $100 million for AID's portion of the International Mother 
        and Child HIV Prevention Initiative. As discussed earlier, an 
        additional $100 million is requested to be provided to HHS for 
        this initiative.

 <bullet>   $50 million for humanitarian, refugee, and reconstruction 
        assistance to the West Bank and Gaza. None of the assistance 
        for the West Bank and Gaza would be provided to the Palestinian 
        Authority.

    Transmission of these requests to the Congress reflects your 
commitment to provide the necessary resources to enhance security on 
our Nation's airplanes and in the airways, to assist Israel and the 
people of the West Bank and Gaza, and to fight the growing pandemic of 
HIV/AIDS among developing countries.
    I have carefully reviewed these proposals and am satisfied that 
they are necessary at this time. Therefore, I join the heads of the 
affected Departments and agencies in recommending that you transmit the 
amendments to the Congress.

Transportation Security Administration

FY2003 Budget Appendix Page:            721
FY2003 Pending Request:                  $4,800,000,000
Proposed Amendment:                      $546,000,000
Revised Request:                          $5,346,000,000

    (In the appropriations language under the above heading, delete 
``$4,800,000,000'' and substitute $5,346,000,000.)
    This request would provide funds to ensure sufficient and timely 
improvements to aviation and transportation security to meet the 
requirements of the Aviation and Transportation Security Act (PL 104-
71). Funding reductions and earmarks in supplemental legislation 
enacted during FY 2002 reduced the Administration's ability to respond 
to transportation security requirements with sufficient flexibility. 
Cost estimates for some planned Transportation Security Administration 
(TSA) activities for FY 2002 have fallen as the program has matured, 
while others have increased. The net effect is that transportation 
security funding needs, particularly for aviation, are still larger 
than the resources provided in FY 2002. Specifically, the amendment 
would provide:

 <bullet>   $200 million in additional funding to support passenger 
        screening requirements. These funds will ensure all passenger 
        screening lanes are appropriately configured, and adequate 
        staff is hired, effectively trained, and deployed.

 <bullet>   $196 million in additional funding for deferred costs, 
        including costs attributable to Federal pay and hiring 
        expenses, third party screening contracts, and leased equipment 
        maintenance.

 <bullet>   $50 million in additional funding for deferred costs 
        associated with the purchase of explosive detection systems 
        (EDS). This funding is urgently needed to ensure that TSA can 
        keep pace with its aggressive EDS deployment plans and have the 
        ability to flexibly respond to individual airport needs.

 <bullet>   $50 million in additional funding for deferred research on 
        a next generation EDS system. TSA must have the resources to 
        work aggressively on the development of a more effective, 
        smaller, and cost effective EDS system.

 <bullet>   $50 million for other newly identified transportation 
        security initiatives including $20 million for cockpit security 
        initiatives; $20 million for grants to test industry-wide 
        trucking security proposals; and, $10 million for additional 
        canine units to facilitate air cargo inspection and the 
        reduction of air carrier restrictions on the transport of U.S. 
        Postal Service mail, and to enhance existing canine coverage of 
        airport terminals and baggage areas.

    This proposed request would provide TSA with the resources 
necessary to meet the requirements of aviation security law in the most 
effective, responsible, and efficient manner possible.
    This amendment would increase FY2003 outlays by $464 million.
        Sincerely,
                                              Nancy P. Dorn

                                  <all>

</pre></body></html>
